                             United States Department of State
                             and the Broadcasting Board of Governors

                             Ofﬁce of Inspector General
Ofﬁce of Inspector General

                             Semiannual Report to the Congress


                             October 1, 2007, to March 31, 2008
                               Summary of OIG Accomplishments


Financial Results:
Questioned costs
         Issued during the reporting period                                                                   $ 122,812
         Management decision during the reporting period                                                      $ 688,000
Recommendations for funds to be put to better use
         Issued during the reporting period                                                                   $16,000,800
         Management decision during the reporting period                                                      $17,986,000

Investigative recoveries                                                                                      $625,484

Investigative Results:
Cases opened ............................................................................................................. 15 

Cases closed ............................................................................................................... 15

Judicial actions ............................................................................................................ 16

Administrative actions................................................................................................. 4 

Hotline and complaint activity ..................................................................................... 257




Reports Issued: 40

                       Picture on the front cover: Embassy Algiers, Algeria

                 Picture provided by Ofﬁce of Overseas Buildings Operations



                                         Requests for additional copies of this
                                         publication should be addressed to:

                                                   Ofﬁce of Inspector General
                                                    U.S. Department of State
                                                      OIG/EX, Room 810
                                                    1700 North Moore Street
                                                      Arlington, VA 22209



                                        Department of State Publication 11462
                                                Ofﬁce of Inspector General
                               TABLE OF CONTENTS

MESSAGE FROM THE ACTING INSPECTOR GENERAL...................................... 1

EXECUTIVE SUMMARY.............................................................................................3

CONGRESSIONAL ACTIVITIES AND OUTREACH ..............................................11


DEPARTMENT OF STATE
SECURITY ...................................................................................................................19

AUDITS........................................................................................................................21

INSPECTIONS .............................................................................................................33

INVESTIGATIONS .....................................................................................................51

APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITES ............57

APPENDIX 2: REPORTS ISSUED .............................................................................59

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

     Table 1: Questioned Costs.......................... ........................................................63

     Table 2: Funds To Be Put To Better Use .........................................................64

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS

     Previously Reported Signiﬁcant Recommendations Pending Final Action .......65

     Revised Management Decisions ........................................................................70

     Signiﬁcant Management Success in Resolving and Implementing
        Recommendations .........................................................................................72

     Summary of Audit Reports Without Management Decision for More Than
        Six Months ....................................................................................................72

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS..................................77

APPENDIX 6: MANAGEMENT AND PERFORMANCE CHALLENGES..............79


BROADCASTING BOARD OF GOVERNORS
AUDITS........................................................................................................................87

INSPECTIONS .............................................................................................................89

INVESTIGATIONS ......................................................................................................93

APPENDIX 1: BBG

INVESTIGATIVE ACTIVITES ...................................................................................95

APPENDIX 2: REPORTS ISSUED .............................................................................97

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

     Table 1: Questioned Costs....................... .........................................................99

      Table 2: Funds To Be Put To Better Use .......................................................100

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS .......101

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS................................103

APPENDIX 6: MANAGEMENT AND PERFORMANCE CHALLENGES............105


LIST OF ABBREVIATIONS .....................................................................................109

   MESSAGE FROM THE ACTING INSPECTOR GENERAL



                                        This semiannual report summarizes the work
                                        and accomplishments of this ofﬁce from
                                        October 1, 2007, to March 31, 2008. The audits,
                                        inspections, reviews, investigations and other
                                        activities highlighted in this report demonstrate
                                        our commitment to promote integrity, account-
                                        ability, and efﬁciency through effective oversight.
                                        This report is required by the Inspector General
                                        Act of 1978, as amended.

                                    On January 15, 2008, Mr. Howard Krongard
                                    returned to the private sector after serving two
                                    and one-half years as Inspector General of the
     Acting Inspector General, 
    Department of State (Department) and the
          William E. Todd

                                    Broadcasting Board of Governors (BBG). A
consistent theme during his tenure was the need to restore OIG’s capabilities, which
had been eroded by more than a decade of constrained budgets at a time when
Department resources and programs had grown exponentially.

When I arrived as Deputy Inspector General in June 2006, OIG was at or below
stafﬁng and funding levels necessary to sustain its normal core functions and meet
the oversight requirements of the Department’s exponential growth. Since then, I
have worked with the Department and Congress to restore our budget to a level that
will allow us to recruit and retain the best people, and strengthen our capabilities to
“follow the money” and ensure that Department and BBG programs and resources
function appropriately and effectively. I want to thank the Department and our
Congressional committees for their support and willingness to invest new resources
in our organization. The $4.1 million increase in appropriations and supplemental
funding that we received in FY 2008 has allowed us to undertake what we refer to
as our “get well, stay well plan.” The focus of this plan is to strengthen recruitment
and retention and increase our value to decision makers with demonstrated savings
and efﬁciencies, and more timely, relevant, and useful information.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   1
The most compelling realization of these efforts came on January 23, 2008, when,
after extensive consultations with the Department and Congress, we opened our
Middle East Regional Ofﬁce at Embassy Amman, Jordan. Our ﬁrst overseas ofﬁce
provides us with a presence in one of the most challenging regions of the world, to
address threats to high-cost, high-risk Department operations and programs in 26
countries, with particular emphasis on Iraq, Afghanistan, Pakistan, Jordan, Lebanon,
and other crisis and post-conﬂict areas.

New hires, including our assistant inspector general (AIG) for the Middle East
region, the director of our Amman ﬁeld ofﬁce, our deputy AIG for audits, and our
congressional and public affairs liaison, have brought extensive experience in recon-
struction and post-conﬂict oversight. We have hired a new AIG and deputy AIG
to restructure our Ofﬁce of Investigations, doubled the number of special agent
positions, and launched a major recruitment and retention effort to revitalize our
investigative operations. Across the organization, the additional funding provided
by Congress has allowed us to recruit, develop, and retain the strong, experienced
workforce we need. This has paid off in substantial beneﬁts to the Department and
BBG, including more than $17 million in cost savings, ﬁnes, and recoveries and more
than 450 recommendations to correct vulnerabilities to the security, management,
and integrity of their programs and operations.

In closing, I would like to commend the commitment and dedication of the men and
women of OIG, who tirelessly promote effective management, accountability, and
positive change in the Department, BBG, and the foreign affairs community. The
recent infusion of resources has done much to strengthen our oversight capabilities
and enhance our ability to provide a solid return on investment, but we will need
continued growth and support to sustain these gains. We look forward to working
in partnership with the Department, BBG, and Congress as we continue to build a
strong, sustainable oversight capability.




                                         William E. Todd
                                         Acting Inspector General




2    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                          EXECUTIVE SUMMARY



This semiannual reporting period was marked by the opening of MERO, OIG’s
overseas ofﬁce, and the resignation in January of Howard Krongard, who had served
as Inspector General (IG) since May 2005.

OIG conducts audits, inspections, and investigations to promote effective manage-
ment, accountability, and positive change in the Department of State (Department),
the Broadcasting Board of Governors (BBG), and the foreign affairs community.
During this reporting period, these activities resulted in over $17 million in cost
efﬁciencies, ﬁnes, and recoveries; six convictions and four administrative actions
from investigations; and issuance of 40 reports with recommendations to improve
Department and BBG programs and operations. A full list of reports issued by the
OIG during this period can be found in Appendix 2 of each section of this report.
This report summarizes work carried out by OIG during the period October 1, 2007,
through March 31, 2008.



The OIG Middle East Regional Ofﬁce
OIG opened its ﬁrst permanent ofﬁce outside of the United States, MERO, on
January 23, 2008. MERO plans and coordinates all OIG activities in 26 countries
spanning from Northern Africa to the Middle East and Central/Southern Asia. The
establishment of MERO has provided an on-the-ground regional presence that will
signiﬁcantly enhance OIG’s efforts to identify potential savings and cost efﬁciencies
for the Department. It will also provide real-time information on matters affecting
high-cost, high-risk Department programs in critical crisis and post-conﬂict areas,
such as Iraq, Afghanistan, Pakistan, Lebanon, and other countries in the region.

MERO is headed by an assistant inspector general (AIG) located in Washington, DC,
and a director at the MERO ofﬁce in Amman. The Amman ofﬁce will be staffed
with six auditors, program analysts, and investigators, and an administrative assistant.
The Washington ofﬁce will have three auditors and program analysts, and a manage-
ment assistant. MERO projects currently underway and scheduled for release in
late spring include reviews of the Special Immigrant Visa Program for Iraq and the
Refugee Processing Program in Iraq.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   3
     U.S. Ambassador to Jordan David Hale shakes hands with Nick Arntson (right),
     assistant inspector general for the Middle East Region Ofﬁce (MERO), after agreeing
     to host MERO at Embassy Amman. Also present are Patrick Dickriede (left), MERO
     director, and OIG Executive Director Alberta Mayberry.




Iraq/Afghanistan Oversight
OIG reviewed rule-of-law (ROL) activities in Afghanistan in October 2007 and
noted ROL, including anti-corruption efforts, is critical in Afghanistan, where there
is a direct connection between the lack of a workable system of governance and the
national security of the United States. OIG’s review concluded Afghanistan cannot
become stable without ROL, and there were no quick solutions. Implementing ROL
requires commitment by Afghans and foreign donors to long-term cooperation.
OIG’s review found bureaucratic coordination on ROL issues had greatly improved,
but was a daunting task involving multiple participants with very different capacities
and goals. The continuous turnover of U.S. Government staff, conﬂicting priorities
among U.S. Government entities, and the frailty of the Afghan formal justice sec-
tor, challenged the ROL coordinator, requiring continued strong Chief of Mission
(COM) support.

OIG also issued a classiﬁed assessment of the state of emergency planning at the
U.S. Embassies in Baghdad, Iraq, and Kabul, Afghanistan. Details of this report can
be found in the classiﬁed annex to this semiannual report (SAR).




4    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Security of People and Facilities

One of the Department’s highest priorities and greatest challenges continues to be
making its people, facilities, and information more secure. During this semiannual
reporting period, OIG conducted 10 security inspections to identify security vulner-
abilities at overseas missions and issued over 100 recommendations for corrective
action. Detailed results of these reviews are presented in the classiﬁed annex to this
semiannual report.

OIG participated in a coordinated effort among 10 executive Departments and agen-
cies to examine those aspects of the Department’s terrorist watch list nomination
process that were agreed to by the participating agencies in a May 7, 2007 Memo-
randum of Understanding. The review was chaired by the OIG of the Ofﬁce of
the Director of National Intelligence (ODNI). The review found the Department’s
program for placing suspected terrorists on the watch list to be functioning well, but
it identiﬁed several cross-cutting, interagency areas where improvements could be
made. These were noted as ﬁndings for ODNI, as part of its comprehensive review
of the watch list process. A related report found the Department’s program for sus-
pected terrorists on the watch list, the Visas Viper Program, to be functioning well as
a whole.



Inspections of Department Missions and
Programs
During this reporting period, OIG issued management inspection reports for mis-
sions in Algeria, Armenia, the Bahamas, Belize, Brazil, Guyana, Kazakhstan, Kyrgyz-
stan, Liberia, Morocco, Netherlands Antilles, Sierra Leone, Tajikistan, and Tunisia, as
well as a compliance follow-up review of the U.S. Mission to International Organiza-
tions in Vienna. During the course of its inspections, OIG identiﬁed best practices
as well as potential cost efﬁciencies and other improvements, which are further
described in the Inspections section of this report. An analysis of recommendations
from these inspections identiﬁed several common issues that could indicate trends
that would beneﬁt from systemic solutions, including problems with overseas facili-
ties, locally employed (LE) staff at overseas missions, and issues affecting transfor-
mational diplomacy initiatives, such as coordination of overseas foreign assistance
activities.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   5
Domestically, OIG inspected the Ofﬁce of the Global AIDS Coordinator (S/GAC).
The inspection found the ofﬁce had made impressive progress in combating
 HIV/AIDS around the world under the President’s Emergency Plan for AIDS
Relief (PEPFAR) and was on track to meet most targets for prevention of the
pandemic and the treatment and care of its victims. S/GAC provides the bulk of
PEPFAR funds to several U.S. implementing agencies, each with its own Inspector
General. OIG recommended S/GAC request these Inspectors General to submit a
joint memorandum describing options, feasibility, and estimated costs of conducting
a collective, independent ﬁnancial audit of U.S. Government-wide PEPFAR funds.
OIG commended S/GAC’s best practice of requiring its own staff, its implementing
agencies, and its private-sector partners to put the goals of PEPFAR ahead of their
individual institutional loyalties, thereby eliciting top performance and strong com-
mitment from diverse agencies



Information Security
Of 18.4 million passports issued by the Department in 2007, 1,489 domestic pass-
port applications and their supporting identiﬁcation documents were reported lost in
transit in 17 separate incidents. Subsequently, 798 of these missing applications were
found. An audit of safeguards for domestic passport applications in transit found the
Department has a number of controls to safeguard domestic passport applications,
and also ﬁnalized guidelines that outline the actions that should be taken when ap-
plications are lost.

However, several control weaknesses remain, including an inability to track applica-
tions throughout the entire process and the cumbersome land and air routing used in
the transportation of applications from lockbox facilities to passport agencies, which
increases the potential for losing shipments. Addressing these weaknesses should
help the Department reduce the risk of identity theft and increase its ability to track
the applications throughout the transportation and processing procedures. This, in
turn, should decrease the likelihood that highly sensitive personal information con-
tained in passport applications could be used for criminal purposes.




6    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Financial Management
Financial management continues to be a major challenge within the Department.
OIG’s independent external auditor was unable to express an opinion on the De-
partment’s 2007 annual ﬁnancial statements, because the Department was unable to
respond to requests for evidential material in time to meet the November 15, 2007,
deadline. In its ﬁndings, the independent external auditor again noted concerns
that had been identiﬁed in prior reports relating to:


    •		 the recording of personal property and related depreciation expenses;
    •		 the adequacy of the ﬁnancial and accounting systems, management of
        undelivered orders; and
    •		 the lack of a managerial cost accounting system.

The independent external auditor also again noted the Department continues to
have difﬁculty producing year-end ﬁnancial data in a timely manner. In addition,
the auditor found the Department was unable to determine the extent of its un-
funded actuarial liability accruing from deﬁned beneﬁt supplemental pension plans
for LE staff.

The Department indicated that because of the complexity of installing its new core
ﬁnancial management system, the close-out process for the Department’s FY 2007
ﬁnancial statements took longer than expected. In response, the Department stated
it will continue to improve internal controls over the areas included in the indepen-
dent external auditor’s report. The Department is making some progress in imple-
menting a managerial cost accounting system, and it is providing additional training
to key personnel related to federal ﬁnancial assistance. In addition, the Department
plans to develop an inventory of deﬁned beneﬁt pension plans for LE staff.

During this reporting period, OIG contracted with various independent external
auditors to perform settled procedures to determine whether the indirect cost rates
proposed by various Department grantees complied with applicable regulations.
For the most part, the independent accountants found grantees accounting systems
to be adequate for accumulating and reporting indirect costs under the provisions
of Ofﬁce of Management and Budget (OMB) Circulars A-122, Cost Principles for
Non-Proﬁt Organizations, and A-110, Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Proﬁt Organi-
zations. The independent accountants questioned $122,812, including $116,200 in
unsupported and unallowable costs.


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   7
Law Enforcement
OIG’s Ofﬁce of Investigations (INV) addresses allegations of waste, fraud, abuse,
and mismanagement related to Department and BBG programs; investigates and
reports to the Department of Justice possible violations of criminal law; and is com-
mitted to assisting the Department and BBG with preventing fraud. During this
semiannual period, OIG conducted investigations in the areas of passport fraud,
false claims, and Metrochek beneﬁt fraud that resulted in 6 convictions, 2 indict-
ments, 10 sentencings and administrative actions, and more than $625,000 in ﬁnes
and restitution. Four of the subjects of INV investigations summarized in this
report were U.S. Government employees.



International Broadcasting
The inspection of the BBG found its unique governing structure is serving U.S. for-
eign policy interests well. It is supported by an energetic, dedicated group of gover-
nors who contribute more than their part-time status may suggest. The BBG’s con-
gressionally mandated collective chief executive ofﬁcer structure and nondelegatable
supervisory authorities, which were both mandated by Congress, require the support
of a robust professional staff to carry out its daily operations. OIG recommended
that BBG produce a human resources needs assessment to develop and reinforce its
structure, and implement a hiring plan.

Another OIG inspection found the new leadership at the Voice of America (VOA),
along with even more recent changes to the leadership of BBG, made an energetic
good start to address systemic internal communications issues and organizational
and leadership challenges facing VOA’s Central News Division (CN). However,
inadequate horizontal and vertical internal communication and changes in the types
of technology needed to reach VOA’s target audiences, combined with U.S. Govern-
ment-wide problems of funding and stafﬁng, had left the news division with an inad-
equate management structure, inefﬁciencies, and poor morale. OIG recommended
that BBG communicate and explain the 2008-13 Strategic Plan to its staff.

Overseas, OIG inspected the International Broadcasting Bureau (IBB), Morocco
Transmitting Station, and BBG operations in Kenya. The Morocco Transmitting
Station was found to be well-managed in providing broadcasting and technical ser-
vices to Europe, the Middle East, and Africa, but faced possible reduced operations
or closure because of IBB budget constraints. OIG recommended IBB, together
with other stakeholders, prepare a careful worldwide study of the future targets of


8    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
U.S. broadcasting, residual value of property and equipment, closeout costs, and
technical issues of propagation of radio waves prior to making an irreversible deci-
sion to close the Morocco transmitting station. In November 2007, however, BBG
announced its intent to cease operations at the Morocco station in 2008 and to
return the facility to the Kingdom of Morocco in 2009.

OIG’s inspection of the BBG operations in Kenya found that Nairobi was the hub
of much of BBG’s activity in East Africa and was well-managed in Nairobi, but
the various BBG practitioners throughout Kenya did not communicate adequately
among themselves. The ofﬁces of IBB and VOA that supported this operation had
not been well-integrated in Washington, and had not communicated adequately with
the ﬁeld. BBG initiatives in the region were under-resourced to meet the increased
interest in East Africa from Washington and VOA’s focus on its media market. OIG
recommended BBG decide either to increase promotional funds for the VOA Ke-
nyan market or to accept a low market share and then plan to address limited com-
munications with the Kenyan audience. OIG also recommended the IBB support
efforts to make programming for East Africa more attractive to local audiences.

An OIG investigation of a BBG ofﬁcial, who engaged in a conﬂict of interest by not
disclosing income from a business he owned that held contracts with BBG, resulted
in the ofﬁcial’s termination from employment with BBG.

The audit of BBG’s FY 2007 and FY 2006 ﬁnancial statements found BBG needs
to continue to improve its internal controls over ﬁnancial and accounting issues.
Although the independent external auditor issued an unqualiﬁed opinion on BBG’s
2007 ﬁnancial statements, the auditor identiﬁed concerns with the adequacy of the
BBG’s ﬁnancial and accounting system, which is both an internal control weakness
and an issue of noncompliance with several laws and regulations, and with account-
ing for accounts payable. In a separate management letter, the independent external
auditor identiﬁed internal control weaknesses relating to BBG’s property records,
purchase card oversight, and undelivered orders.

BBG is transitioning to a new ﬁnancial service provider and believes this will correct
several internal control weaknesses, because the new system should allow for integra-
tion of property data into the general ledger and interim ﬁnancial reporting. BBG
also is updating its Manual of Operations and Administration, including codifying
the ﬁnancial management, budget, and performance management operating proce-
dures.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   9
10   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
 CONGRESSIONAL ACTIVITIES AND OUTREACH



Testimony

During this reporting period, Howard Krongard testiﬁed before the
House Oversight and Government Reform Committee concerning a
Committee investigation into the procedures and activities at OIG.



Congressional Mandates and Requests
In response to legislative mandates and requests from Congress, OIG conducted the
following reviews during this semiannual period.

As mandated by the Chief Financial Ofﬁcers Act of 1990 (P.L. 101-576, as amend-
ed), OIG directed and monitored the following ﬁnancial statement audits and other
work conducted by an independent external auditor:


AUD/FM-08-06             Management Letter Related to the Audit of the Broadcasting
                         Board of Governors 2007 and 2006 Financial Statements

AUD/FM-08-03             Independent Auditor’s Report on the Department of State’s
                         Special-Purpose Financial Statements

AUD/FM-08-05             Independent Auditor’s Report on the Department of State’s
                         2007 and 2006 Financial Statements

AUD/FM-08-07             Independent Auditor’s Report on the Broadcasting Board of
                         Governors’ 2007 and 2006 Financial Statements




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   11
Media Assistance and Outreach
During this semiannual period, OIG responded to various media inquiries about
work it performed and other related matters. Most of the inquiries focused on the
House Oversight and Government Reform Committee investigation of the Inspec-
tor General, and the OIG’s continuing investigation into allegations that Department
contract employees accessed passport records of Senators Hillary Clinton, John Mc-
Cain and Barack Obama without authorization. Other requests included:

      •		 Information concerning a Government Accountability Ofﬁce (GAO) report
          on the OIG and a House Foreign Affairs subcommittee hearing on that
          report

      •		 Reports and information on the OIG review of Iraqi Emergency Response
          Units

      •		 Information on the establishment of MERO in January 2008, in Amman,
          Jordan


OIG staff participated in the following outreach activities during this semiannual
period:

      •		 OIG senior staff from the Ofﬁces of Audits, Inspections, and Investigations
          made presentations at the Department’s training for administrative manage-
          ment ofﬁcials.

      •		 Audit staff made a presentation on the importance of property administra-
          tion at the Department-wide 2007 Contracting Ofﬁcer’s Representative
          training session.

      •		 INV and Ofﬁce of Inspections (ISP) staff made presentations at four
          Ambassadorial Seminars and two new Foreign Service Ofﬁcers Classes.

      •		 OIG staff from ISP, INV, and the Ofﬁce of Audits (AUD), spoke at the
          Department’s training course for general services ofﬁcers.

      •		 Senior inspection staff briefed deputy chief of mission (DCM) and principal
          ofﬁcer’s courses on the role of post and mission inspections.

      •		 ISP staff spoke at the Department’s new training course for ﬁrst-time poli-
          tical and economic section heads.



 12    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
    •		 ISP and Executive Management staff briefed the Department’s Advanced
        Human Resources class.

    •		 Senior staff met with Ambassadors and deputy chiefs of mission preparing
        to depart for new assignments to discuss areas of emphasis in their missions
        and provide suggestions to assist in the management of their missions.

    •		 INV staff made fraud awareness presentations to six Civil Service Orienta-
        tion classes, one Financial Management Ofﬁcer class, and one General
        Services Ofﬁcer class.

    •		 ISP senior staff spoke at the Grants Management Conference hosted by the
        Bureau of Administration, Ofﬁce of the Procurement Executive.



Legislation Monitored
OIG reviewed and monitored the following legislation during this SAR period:

    • 	 H.R.1585, the National Defense Authorization Act for Fiscal Year 2008, as it
        pertains to language establishing a Special Inspector General for Afghanistan
        Reconstruction.

    •		 Also, S.A. 2150, an amendment to H.R. 1585, which establishes a Special
        Inspector General for Afghanistan Reconstruction.

    •		 H.R. 2446, the Afghanistan Freedom and Security Support Act of 2007.

    •		 H.R. 2740, the Military Extraterritorial Jurisdiction Act Expansion and
        Enforcement Act of 2007, which would require Inspectors General
        working in any military theater of operations to coordinate their work with a
        newly created theater investigative unit within the FBI.

    •		 H.R. 2764, the Department of State, Foreign Operations, and Related
        Appropriations Act of 2008, which includes funding for OIG for Fiscal
        Year 2008.

    •		 H.R. 928 and S. 1723, Improving Government Accountability Act, as in-
        troduced in both the House and the Senate. Both bills amend the 1978
        Inspector General Act.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   13
      •		 H.R. 2420, International Climate Cooperation Re-Engagement Act of 2007,
          which would assign oversight responsibility for the newly created
          International Clean Energy Foundation to OIG.

      •		 H.R. 1469 and S. 991, the Senator Paul Simon Study Abroad Foundation
          Act of 2007, as introduced in the House and Senate. Both bills assign
          oversight responsibilities for the newly created foundation to OIG.

      •		 S. 1825, Commission on Wartime Contracting Establishment Act, which
          would assign oversight review of security, intelligence, and reconstruction
          in Iraq and Afghanistan to the Special Inspector General for Iraq Recon-
          struction in conjunction with State OIG and the Inspectors General from
          Defense Department and the U.S. Agency for International Development
          (USAID).

      •		 S. 680, Accountability in Government Contracting Act of 2007, which would
          amend Section 8G(e) of the 1978 Inspector General Act, and prohibit
          Inspectors General from receiving cash awards.

      •		 S.A. 2709, an amendment to Fiscal Year 2008 appropriations for the Depart-
          ment of State, Foreign Operations, and Related Programs, which Senator
          McCaskill proposes to introduce during conference., that would place certain
          requirements on the websites of the Department and OIG.

      •		 S. 2731, Tom Lantos and Henry J. Hyde United States Global Leadership
          Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of
          2008, which would require that the Inspectors General of the Department
          of State, USAID, and Health and Human Services jointly develop ﬁve
          coordinated annual plans for oversight activity (ﬁnancial audits and
          performance reviews) for ﬁscal years 2009 through 2013 for programs
          authorized under this Act and Section 104A of the Foreign Assistance Act.



Implementation of the Government Performance
and Results Act and the President’s Management
Agenda
In support of the Government Performance and Results Act and the President’s
Management Agenda, OIG reviewed mission and bureau strategic plans, as well as
rightsizing and consolidation issues for each mission and ofﬁce inspected during this
reporting period.

 14     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
During its inspection of ROL programs in Afghanistan, OIG found U.S. efforts to
support ROL in Afghanistan showed professionalism and tenacity. But it was not
clear how or whether ROL efforts were being measured for success, and if inter-
national attention wanes, how these projects could be sustained. In its review of
S/GAC, OIG found the ofﬁce attracted favorable attention, in part, because its
elaborate statistical methodology could demonstrate quantiﬁable results and account-
ability. Information gathering and program planning, however, consumed staff time
in Washington and in the ﬁeld, and needed further streamlining. OIG informally
recommended S/GAC and the Ofﬁce of U.S. Foreign Assistance make further ef-
forts to harmonize their processes to increase transparency, aid decision making, and
reduce workload.

At Embassy Monrovia, Liberia, construction of a badly needed new embassy com-
pound was scheduled to begin in FY 2008. However, the rightsizing exercise con-
ducted in preparation for this project was no longer current, and the Embassy and
the Department needed, urgently, to prepare the best possible estimate of future
space needs before the construction plan was ﬁnalized.

In its inspection of Embassy Tunis, Tunisia, OIG found the Embassy may have
more staff than necessary in its substantive and management functions. Stafﬁng
adjustments will require careful planning and management to maintain good service
levels. OIG recommended the Embassy conduct a rightsizing review of stafﬁng at
the mission.

OIG’s inspection of Embassy Astana, Kazakhstan, found the mission should be
more rigorous in evaluating relevant functions before requesting or approving
increases in American direct-hire employees. OIG reviewed the National Security
Decision Directive (NSDD)-38 process with the Embassy and suggested ways to de-
velop a more comprehensive decision package to know the real costs underlying any
increase in U.S. direct-hire stafﬁng. OIG recommended Embassy Astana follow the
process to perform and document a comprehensive analysis of both programmatic
and administrative requirements prior to deciding on requests to increase personnel.

At Embassy Brasilia, Brazil, OIG stated the nonimmigrant visa (NIV) workload had
grown at a pace that far exceeded long-range forecasts. Lengthy wait times for visa
appointments had hurt the image of the United States. Brazil’s consular operations
were seriously under-resourced, and morale had suffered. Additional ofﬁcer posi-
tions had been approved, but even more new ofﬁcer positions were needed to right-
size consular operations.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   15
OIG found Consulate General Curacao, Netherlands Antilles, was not right-sized.
Without the addition of LE staff resources to support the reporting functions and
consular services, it would not be able to carry out tasks that urgently need atten-
tion. The post lacked adequate space for current personnel and operations, yet must
increase staff.




16   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
U.S. Department of State
18   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                                  SECURITY




Review of the Department of State’s Terrorist
Watch List Nomination Process (SIA-08-01)

The review, which was part of a coordinated effort among ten executive Depart-
ments and agencies1, and was overseen by the OIG of the Ofﬁce of the Director
of National Intelligence (ODNI), examined the Department’s terrorist watch list
nomination process. The examination was limited to those aspects of the watch list
process that were greed to by the ten participants in a memorandum of understand-
ing dated May 7, 2007, with particular emphasis on cross-cutting, interagency issues.”
This review found the Department’s program for watch-listing suspected terrorists
to be functioning well, but it identiﬁed several cross-cutting, interagency areas where
improvements could be made. These were noted as ﬁndings for ODNI as part of its
comprehensive review of the watch list process.



Review of the Department’s Terrorist Watch List
Nomination (Visas Viper) Process (SIA-08-02)

This review found the Department’s program for watch-listing suspected terrorists,
the Visas Viper Program, to be functioning well as a whole. Every overseas diplo-
matic post is required to have a Visas Viper committee that meets and reports to the
Department and the National Counterterrorism Center at least monthly regarding
known or suspected terrorists. In response to an OIG survey questionnaire sent to
all diplomatic and consular posts, 96 percent of the respondents (222 posts) reported
having a Visas Viper committee, and 94 percent (217 posts) reported meeting and
reporting to the Department monthly.

Although the Visas Viper program as a whole is functioning well, the review identi-
ﬁed several areas where the Department can improve the program.

1
 Ofﬁce of the Director of National Intelligence, Central Intelligence Agency, Department of
Justice, Defense Intelligence Agency, National Security Agency, Department of Homeland
Security, Department of State, National Geospatial-Intelligence Agency, Department of the
Treasury, and Department of Energy.


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   19
Review of Department of State Headquarters
Cable Drafting and Distribution Process (SIA-08-03)

This review examined the Department’s headquarters cable drafting and distribution
process pertaining to the protection of sensitive and classiﬁed information to deter-
mine the adequacy of the rules and regulations that govern cable drafting and subse-
quent distribution, and whether these rules and regulations were being followed.

The review found the majority of the rules and regulations governing cable drafting
to be adequate. The least adequate area, according to cable approving ofﬁcers, was
the Department’s Foreign Affairs Handbook guidance regarding channel and distri-
bution captions. However, during the review, the Bureau of Information Resource
Management issued an All Diplomatic and Consular Posts cable that retired numer-
ous infrequently used channel and distribution captions, and began to revise 5 FAH-
2 H-440, Captions and Handling Instructions for Information Management Specialists. OIG
found that cable drafting rules and regulations were being followed, except for those
pertaining to the protection of personally sensitive information. Nearly 12 percent
of the randomly selected unclassiﬁed cables were found to contain personally sensi-
tive information.

The review found adequate rules and regulations concerning cable distribution, but
found evidence that access to Department cables was being granted on a need-to-
know basis in fewer than half of the randomly selected bureaus and principal ofﬁces.

OIG recommended the Department determine and promulgate the speciﬁc types
of information that require protection as personally identiﬁable information, and re-
quire individual cable access user privileges to be based upon need-to-know require-
ments and approved by supervisors.




 20   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                                     AUDITS




Safeguarding Domestic Passport Applications
During Transit (AUD/IP-08-19)

OIG conducted an audit to determine whether domestic passport applications were
adequately safeguarded during transit. A passport is an ofﬁcial government docu-
ment that certiﬁes an individual’s identity and citizenship, and permits a citizen to
travel abroad. Only the Department has authority to issue U.S. passports. During
FY 2007, the Department issued nearly 18.4 million passports. The Department
reported a total of 1,489 domestic passport applications and their supporting iden-
tiﬁcation documents had been lost in transit in 17 separate incidents; 798 of these
were later found.

OIG determined the Department had a number of controls to safeguard domestic
passport applications, including providing security screening of Department and
lockbox facility personnel, segregating duties for processing applications, reconciling
passport applications, and verifying receipt of shipped boxes of applications. In ad-
dition, OIG noted the Bureau of Consular Affairs (CA), Ofﬁce of Passport Services,
had ﬁnalized guidelines that outline the actions it should take when applications are
lost.

However, OIG found several control weaknesses that, when addressed, could further
enhance controls to safeguard applications. These included ﬁndings that:

    • 	 The Department does not have the ability to track applications throughout
        the entire process, and

    •		 The transportation of applications from lockbox facilities to passport agen-
        cies involves cumbersome land and air routing, which increases the potential
        for losing shipments.

OIG’s recommendations should help the Department reduce the risk of identity
theft and increase its ability to track the applications throughout the transportation
and processing procedures. This, in turn, should decrease the likelihood that highly
sensitive personal information contained in passport applications could be used for
criminal purposes.


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   21
CA ofﬁcials agreed with the audit results and said that further improvements are
needed to safeguard passport applications. In response to OIG’s draft report, CA
generally concurred with OIG’s recommendations and began implementing correc-
tive actions.



Independent Auditor’s Report on the Department
of State’s 2007 and 2006 Financial Statements
(AUD/FM-08-05)

OIG’s independent external auditor was unable to express an opinion on the Depart-
ment’s annual ﬁnancial statements as of, and for the year ending September 30, 2007,
because the Department was unable to respond to requests for evidential material
in a timely manner. Also, the external auditor was unable to perform other auditing
procedures to satisfy itself as to the accuracy of the 2007 ﬁnancial statements in time
to meet the November 15, 2007, deadline imposed by OMB for issuing its report.

The external auditor found:

     • 	 Certain deﬁciencies in the Department’s internal controls the auditor con-
         sidered to be signiﬁcant deﬁciencies and other deﬁciencies that it considered
         to be material weaknesses;

     •		 Instances of noncompliance with selected provisions of applicable laws and
         regulations involving the Department’s ﬁnancial management system; and

     •		 Department ﬁnancial management systems that did not substantially com-
         ply with the requirements of the Federal Financial Management Improve
         ment Act of 1996.



Independent Auditor’s Report on the Department
of State’s Special-Purpose Financial Statements
(AUD/FM-08-03)

OIG engaged an independent external auditor to audit the Department’s reclassi-
ﬁed balance sheet as of September 30, 2007, and the related reclassiﬁed statements
of net cost and changes in net position for the year then ended. The independent
external auditor was unable to express an opinion on the Department’s 2007 ﬁ-
nancial statements as of the November 15, 2007, deadline imposed by OMB. The

22    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Department’s general-purpose ﬁnancial statements are the source of the amounts
presented in the special-purpose ﬁnancial statements; thus the independent external
auditor was not able to express, and did not express, an opinion on the Department’s
2007 special-purpose ﬁnancial statements. The special-purpose ﬁnancial statements
are used by the Department of the Treasury to prepare Government-wide ﬁnancial
statements.


       Report on the External Quality Control Review of the
             Federal Deposit Insurance Corporation’s
               Inspector General Audit Organization
                      (Issued November 2007)

    OIG reviewed the system of quality control for the audit function of the
    Federal Deposit Insurance Corporation’s (FDIC) OIG in effect for the year
    ended March 31, 2007. A system of quality control encompasses an
    OIG’s organizational structure and the policies adopted and procedures
    established to provide it with reasonable assurance of conforming with
    generally accepted government auditing standards (GAGAS). GAGAS
    requires government audit organizations to undergo periodic external
    peer reviews to determine whether OIG’s internal quality control system is
    adequate as designed and has been complied with to provide reasonable
    assurance that applicable auditing standards, policies, and procedures
    have been met. The review was conducted in conformity with standards
    and guidelines established by the President’s Council on Integrity and
    Efﬁciency and the Executive Council on Integrity and Efﬁciency. OIG
    determined that the internal quality control system of the FDIC OIG was
    adequate as designed, and applicable auditing standards, policies, and
    procedures were met. In the report, OIG made ﬁve recommendations,
    which FDIC OIG agreed to implement.




Attestation Review of Annual Accounting of Drug
Control Funds and Performance Summary by the
Department of State for FY 2007 (AUD/PP-08-17)

OIG reviewed the assertions from the Bureau of International Narcotics and Law
Enforcement Affairs (INL) FY 2007 detailed accounting and performance submis-
sion to the Director of the Ofﬁce of National Drug Control Policy (ONDCP),


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   23
which was prepared in compliance with ONDCP Circular Drug Control Accounting,
dated May 1, 2007. The submission is the responsibility of the Department. OIG
could not attest to three of INL’s assertions relating to drug control obligations for
FY 2007, because OIG could not rely on the ﬁnancial systems that produced the
data. Except for these qualiﬁcations, nothing came to OIG’s attention that caused it
to believe INL’s assertions did not, in all material respects, reliably represent obliga-
tion and performance targets and results for all years presented in the submission
and comply with ONDCP criteria.




             Funds Recovered and to be Put to Better Use

     OIG participated in a joint audit of the Department’s Diplomatic Tele-
     communications Service - Program Ofﬁce’s (DTS-PO) Working Capital
     Fund. The audit, issued in January 2008, identiﬁed the need to improve
     DTS-PO’s ﬁnancial accountability, including the transparency of fees
     paid by U.S. Government users for overseas telecommunications ser-
     vices. As a result of the audit, more than $39 million was identiﬁed to be
     returned to overseas telecommunications users, since actual contract
     costs were found to be less than charges based on estimated costs.
     The Department will receive $8 million during the remainder of FY 2008
     and a similar amount during FY 2009 as credit against overseas tele-
     communications use.




Concern With the Department’s Replacement
of Body Armor (AUD/SI-08-21)

In researching potential audit areas, an OIG team conducted research on the Depart-
ment’s use of body armor. The team collected related documentation and inter-
viewed ofﬁcials from two units of the Bureau of Diplomatic Security (DS) — the
Ofﬁce of Physical Security Programs, Defensive Equipment and Armored Vehicle
Division (DS/PSP/DEAV), and the International Programs, Overseas Protective
Operations, High Threat Protection Division. OIG did not initiate an audit during
this time frame, but it did identify one concern, which it brought to the Department’s
attention.



24   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
DS/PSP/DEAV does not have written policies and procedures that provide detailed
guidelines on the inspection and replacement of body armor after the service life of
the body armor has expired. Lives could be at greater risk in a ﬁreﬁght or other dan-
gerous situation if the body armor’s protective capabilities have deteriorated over the
years, particularly in hot and humid climates. OIG recommended DS develop and
disseminate written policies and procedures that provide guidelines on the inspection
and replacement of body armor and that it replace body armor, as appropriate.



Independent Accountants’ Reports
During this reporting period, OIG contracted with three certiﬁed public accounting
ﬁrms, as speciﬁed, to perform agreed-upon procedures of indirect cost rates, costs
claimed, and/or ﬁnancial capability of 10 organizations. The engagements were
conducted under the provisions of OMB Circulars A-122, Cost Principles for Non-
Proﬁt Organizations; A-110, Uniform Administrative Requirements for Grants and Agreements
With Institutions of Higher Education, Hospitals and other Non-Proﬁt Organizations; and/or
A-133, Compliance Supplement. The organizations reviewed and the results of the
agreed-upon procedures follow:



Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Indirect
Cost Rates Proposed by National Council for
International Visitors (AUD/CG-08-01)

Regis & Associates, PC, Certiﬁed Public Accountants, determined the Council’s pro-
posed indirect cost rates for the ﬁscal years ending September 30, 2005, 2004, and
2003, were properly calculated. The Council’s accounting system was adequate for
accumulating and reporting indirect costs under the provisions of OMB Circulars
A-122 and A-110. The accountants recommended the Department accept and ﬁnal-
ize the indirect cost rates for the stated years, as proposed by the Council and recom-
mended in the report.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   25
Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Costs
Claimed by Young Men’s Christian Association
of Greater New York Under Department of State
Grants (AUD/CG-08-02)

L.F. Harris & Associates, CPA, P.A., performed certain agreed-upon procedures on
the costs claimed by the association under selected Department grants. The proce-
dures were to determine whether the association adequately accounted for federal
funds related to the grants and complied with the terms of the grants and the cost
principles of OMB Circulars A-122, A-110, and A-133. The accountants found the
association’s accounting system to be adequate to identify, segregate, accumulate, and
report direct and indirect costs under the provisions of Circular A-122.

However, the accountants found the association did not comply with the require-
ments of OMB Circular A-122 in that it: (1) improperly charged $568 in unallowable
food and beverage costs to a Department grant unrelated to the associated allowable
travel expenses; (2) did not submit ﬁnancial reports or submitted them after the due
dates speciﬁed in the grants; (3) requested funds from the Department in excess of
immediate disbursement requirements; and (4) did not require employee timesheets
to be prepared in accordance with Circular A-122. As a result, costs of $82,714 were
questioned: $82,146 as unsupported payroll costs and $568 as unallowable charges
for food and beverage expenses.


The accountants recommended the Bureau of Educational and Cultural Affairs: (1)
seek reimbursement of unallowable costs and unsupported payroll costs that cannot
be substantiated; (2) require the association to establish a system to ensure timely
reporting of grant ﬁnancial information; (3) instruct the grantee to draw down funds
based on immediate needs; and (4) require the association to establish an employee
time reporting system in accordance with Circular A-122.




26   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by America-
Mideast Educational and Training Services,
Inc. (AUD/CG-08-08)

Regis & Associates, PC, Certiﬁed Public Accountants, determined that although
AMIDEAST’s accounting system was adequate for accumulating and reporting
indirect costs under the provisions of OMB Circulars A-122 and A-110 for the ﬁscal
year ended September 30, 2005, the proposed indirect costs for general and adminis-
trative expenses for FY 2005 included $2,130 of entertainment charges, which con-
travenes the provisions of Circular A-122. The accountants questioned these costs
as unallowable.

Except for the questioned costs, the indirect cost rates proposed by AMIDEAST
for FY 2005 were properly calculated, and the indirect cost rate structures complied
with the provisions of OMB Circular A-122. The independent accountants recom-
mended the Department accept and ﬁnalize the indirect cost rates for FY 2005, as
recommended in the report.



Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Indirect
Cost Rates Proposed by NAFSA: Association of
International Educators (AUD/CG-08-10)

Regis & Associates, PC, Certiﬁed Public Accountants, determined that the proposed
indirect cost rates for NAFSA for the years ending December 31, 2005 and 2004,
complied with applicable regulations, and NAFSA’s accounting system was adequate
for accumulating and reporting indirect costs under the provisions of OMB Circu-
lars A-122 and A-110.

However, for the proposed indirect costs for 2005 and 2004, the accountants ques-
tioned costs totaling $297,551 as unallowable: (1) $292,741 in bank charges related
to NAFSA member subscriptions, and (2) $4,810 in overhead costs for personal use
gifts and alcoholic beverages. In both cases, the charges contravene the provisions
of Circular A-122. The accountants recommended the Department accept and
ﬁnalize the indirect cost rates for the years ended December 31, 2005 and 2004, as
recommended in the report.

Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   27
Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Indirect
Cost Rates Proposed by Sister Cities International,
Inc. (AUD/CG-08-11)

Regis & Associates, PC, Certiﬁed Public Accountants, determined that the indirect
cost rates proposed by Sister Cities for the years ending December 31, 2006, 2005,
2004, and 2003, were properly calculated, and the indirect cost rate structures com-
plied with the provisions of OMB Circular A-122.

However, the accountants questioned proposed indirect costs for 2005, 2004, and
2003: $34,054 of unsupported charges and $2,914 of unallowable charges for al-
coholic beverages, which contravenes the provisions of Circulars A-110 and A-122.
The independent accountants recommended the Department accept and ﬁnalize the
indirect cost rates for these years, as recommended in the report.



Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Indirect
Cost Rates Proposed by International Center for
Journalists, Inc. (AUD/CG-08-13)

Leonard G. Birnbaum and Company, LLP, Certiﬁed Public Accountants, determined
the center properly calculated and reported its indirect costs and fringe beneﬁt rates
for the years ending December 31, 2006 and 2005, and the center’s accounting sys-
tem was adequate for accumulating and reporting indirect costs under the provisions
of OMB Circulars A-122 and A-110. The accountants recommended the Depart-
ment accept and ﬁnalize the indirect cost and fringe beneﬁt rates for 2006 and 2005,
as proposed and recommended in the report.




28   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Indirect
Cost Rates Proposed by the Institute for Training
and Development (AUD/CG-08-14)

Leonard G. Birnbaum and Company, LLP, Certiﬁed Public Accountants, performed
agreed-upon procedures to determine whether the indirect cost rates proposed by
the institute for the years ending December 31, 2006, 2005, and 2004, complied with
applicable regulations. The accountants found the institute’s accounting system to be
adequate for accumulating and reporting indirect costs under the provisions of OMB
Circulars A-122 and A-110, and that for 2006 and 2005, the Center had properly
calculated and reported its indirect costs and fringe beneﬁt rates.

However, for 2006, 2005, and 2004, the indirect cost rates reported by the institute,
while appropriately structured and calculated, consisted of $4,551 in interest expense
within the administrative expense pools (2006 - $1,328; 2005 - $2,185; and 2004 -
$1,038). The accountants questioned these interest expense amounts as unallowable
under the provisions of Circular A-122. The accountants recommended the Depart-
ment accept and ﬁnalize the indirect cost and fringe beneﬁt rates for 2006 and 2005,
as recommended in the report.



Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Indirect
Cost Rates Proposed by United States Conference
of Catholic Bishops (AUD/CG-08-15)

Regis & Associates, PC, Certiﬁed Public Accountants, determined the conference
properly calculated and reported its indirect cost rates for the years ending Decem-
ber 31, 2006, 2005, and 2004, and took no exception to the proposed cost rates. The
accountants also found the conference’s accounting system to be adequate for accu-
mulating and reporting indirect costs under the provisions of OMB Circulars A-122
and A-110. The accountants recommended the Department accept and ﬁnalize the
indirect cost rates for 2006, 2005, and 2004, as recommended in the report.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   29
Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on Indirect
Cost Rates Proposed by the International Rescue
Committee, Inc. (AUD/CG-08-16)

Leonard G. Birnbaum and Company, LLP, Certiﬁed Public Accountants, determined
the committee had properly calculated and reported its indirect and fringe beneﬁt
rates for the year ended September 30, 2006, and the committee’s accounting system
was adequate for accumulating and reporting indirect costs under the provisions of
OMB Circulars A-122 and A-110. The accountants recommended the Department
accept and ﬁnalize the indirect cost and fringe beneﬁt rates for 2006, as recommend-
ed in the report.



Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on the
Financial Capability of International Arts and
Artists, Inc. (AUD/CG-08-20)

At the request of the Bureau of Educational and Cultural Affairs (ECA), OIG con-
tracted with Leonard G. Birnbaum and Company, LLP, Certiﬁed Public Accountants,
to determine whether Arts and Artists had sufﬁcient ﬁnancial resources to perform
under a proposed $458,225 ECA grant.

The accountants concluded Arts and Artists is ﬁnancially sound and it could under-
take a $458,225 project without straining its ﬁnancial resources, regardless of wheth-
er it was permitted to draw advances from the Department of Health and Human
Services Payment Management System, which is used by the Department to advance
funds to grantees.




 30   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
               Nonfederal Audits of Nonproﬁt Institutions

    OMB Circular A-133, Audits of States, Local Governments, and Non-Proﬁt
    Organizations, establishes audit requirements for speciﬁed entities re-
    ceiving federal awards. Public accounting ﬁrms employed by non-federal
    entities conduct the audits. The ﬁrms ﬁle these single audit reports with
    the Federal Audit Clearinghouse, and OIG reviews audit reports involving
    Department funds and provides quality assurance and general oversight.

    OIG conducted its reviews using the President’s Council on Integrity and
    Efﬁciency’s Uniform Guide for Initial Review of A-133 Audit Reports. The
    objectives of the initial reviews were to: (1) ensure that audit reports met
    applicable reporting standards and OMB Circular A-133 reporting require-
    ments; (2) identify any follow-up audit work needed; (3) identify audits for
    potential quality control reviews; and (4) identify issues that may require
    management attention.

    During a two-month reporting period, OIG completed six analytical desk
    reviews of single audits for two entities, with Department expenditures
    totaling $343,261,800. OIG recommended the Department and BBG
    resolve the questioned costs and ensure internal control weaknesses and
    instances of noncompliance are corrected.




  Report                         Fiscal Questioned         Department of        Other Federal
  Number          Grantee        Year     Costs                State               Agency
                                                           Expenditures         Expenditures
 08-A133001      Arabic           2004                $0         $ 53,584,322                  $0
                 Television
                 Broadcast        2005                 0           83,306,021                      0
                 in The
                                  2006                 0           91,577,522                      0
                 Middle East
                 Countries
 08-A133002      American         2004           $ 3,473         $ 31,160,766          $ 4,616,350
                 Institute in
                                  2005            16,707           46,284,890            5,312,664
                 Taiwan
                                  2006           236,678           37,348,279            7,578,834

   TOTAL                                     $ 256,858       $ 343,261,800         $ 17,507,848




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008       31
32   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                                    INSPECTIONS




Afghanistan


Inspection of Rule-of-Law Programs in Afghanistan
(ISP-I-08-09)

OIG reviewed ROL activities in Afghanistan in October 2007 and noted that ROL
is critical in Afghanistan, where there is a direct connection between the lack of a
workable system of governance and the national security of the United States. The
absence of a modern, functional government sustains the Taliban and al-Qaeda and
encourages the vast opium trade. Conﬁdence that the government can provide a fair
and effective justice system is essential to convincing war-battered Afghans to sup-
port a democratic system rather than accept rule by terrorists, warlords, and narcotics
trafﬁckers.

OIG’s review concluded Afghanistan cannot become stable without ROL. There
were no quick solutions. Implementing ROL requires commitment by Afghans and
foreign donors to long-term cooperation. Afghanistan’s formal civil code judicial
system, like its frail police, corrections, and educational institutions, was destroyed
during 30 years of conﬂict. Most Afghans only have conﬁdence in, and prefer to
use, the informal systems of dispute resolution within their tribe, ethnicity, or Islamic
sect. These, too, have been weakened by war and instability. Neither the Afghan
Government nor Western donors have adequately addressed the balance between the
formal and informal systems. OIG recommended, that, after appropriate consulta-
tion, Embassy Kabul develop a policy position on the desirability of linking parts of
the informal sector with the formal justice system.

Corruption undermines Afghan public conﬁdence in a formal ROL structure. The
Afghan Government and the donor community must demonstrate greater commit-
ment to ﬁghting corruption. Many past ROL coordination failures were addressed,
with support from the previous ambassador and DCM, by creating a senior ROL
coordinator position to which all U.S. agencies, the international donor community,
and Afghan legal institutions could turn for information, communication, and guid-



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   33
ance. OIG recommended the Embassy retain the ROL coordinator position at a se-
nior level, reporting directly to the DCM. OIG also recommended Embassy Kabul
develop and implement a coordinated anti-corruption strategy to include all of the
mission’s ROL institutions.

OIG’s review found bureaucratic coordination on ROL issues had greatly improved,
but was a daunting task involving multiple participants with very different capacities
and goals. The continuous turnover of U.S. Government staff, conﬂicting priorities
among U.S. Government entities, and the frailty of the Afghan justice sector chal-
lenged the ROL coordinator. The position required continued strong COM support.

U.S. efforts to support ROL in Afghanistan show professionalism and tenacity. But
it was not clear how, or even whether, ROL efforts were being measured for success,
and if international attention wanes, how these projects could be sustained. Several
U.S. Government agencies fund many programs related to ROL. OIG found no
indication the funds were being used improperly. However, no one source seemed
to have a clear picture of the scope of U.S. expenditures in this ﬁeld. OIG recom-
mended the Department draft a plan to meet the mandate in National Security
Presidential Directive-44 by developing a funding matrix to identify all justice sector
funds.



Domestic Bureaus and Ofﬁces

Review of the Ofﬁce of the U.S. Global AIDS
Coordinator (ISP-I-08-23)

OIG conducted a review of S/GAC. The report noted that in its four years of
existence, S/GAC had made impressive progress in combating HIV/AIDS around
the world under PEPFAR and was on track to meet most targets for prevention of
the pandemic and the treatment and care of its victims. In comparison to other U.S.
development assistance programs, PEPFAR is very well-funded, sometimes dwarﬁng
other initiatives that reﬂect high-priority U.S. strategic interests.

S/GAC had forged exceptionally successful interagency coordination and coopera-
tion by creating a “one-U.S. Government” approach to decision making and program
implementation at the policy, technical, and managerial levels. OIG informally rec-
ommended S/GAC develop ﬂexible guidelines about core competencies to resolve
residual frictions between implementing agencies.

34   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Because of ambiguity about control over certain health-related assistance funds out-
side of PEPFAR accounts, the report noted the coordinator and the Department’s
Ofﬁce of U.S. Foreign Assistance should negotiate a clear delineation of authority,
reaching agreement in advance of further congressional action on reauthorization of
the PEPFAR program.

S/GAC attracts favorable attention, in part, because its elaborate statistical method-
ology can demonstrate quantiﬁable results and accountability. Information gathering
and program planning, however, consume staffers’ time in Washington and in the
ﬁeld, and need further streamlining. OIG informally recommended S/GAC and the
Ofﬁce of U.S. Foreign Assistance make further efforts to harmonize their processes
to increase transparency, aid decision making, and reduce workload.

S/GAC provides the bulk of PEPFAR funds to several U.S. implementing agencies,
each with its own IG. Regular overall ﬁnancial audits of PEPFAR funds, coordi-
nated among these IGs, would improve accountability. OIG recommended S/GAC
request the IGs for agencies that receive PEPFAR funds to submit a joint memoran-
dum describing the options, feasibility, and estimated costs of conducting a collec-
tive, independent ﬁnancial audit of U.S. Government-wide PEPFAR funds.


        Best Practice: Interagency Coordination and Cooperation

        Issue: The U.S. Government’s ﬁght against HIV/AIDS across the
        globe requires the participation of multiple federal agencies and
        private-sector partners, all with different objectives, skills, cultures,
        and processes. The large new PEPFAR program had to ramp
        up very quickly and, thus, had to forge a high level of interagency
        coordination and cooperation.

        Response: S/GAC founded itself on the principle of a “one-U.S.
        Government” approach to its operations. S/GAC requires its own
        staff, its implementing agencies, and its private-sector partners to
        put PEPFAR’s goals ahead of institutional loyalties. S/GAC forges
        cooperation and collaboration in Washington through regular
        interagency meetings among principals, deputies, technical staff,
        and country-speciﬁc teams. In the ﬁeld, S/GAC insists on COM
        leadership of all implementers, and in cases when disputes still
        arise, S/GAC sends out an interagency arbitration team to resolve
        problems.

        Result: Overall, by acting as an honest broker, S/GAC elicits top
        performance and strong cooperation and synergy from diverse
        agencies.



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   35
        Compliance Follow-up Review of the U.S. Mission to
         International Organizations in Vienna (ISP-C-08-08)
        An OIG compliance follow-up review (CFR) of the U.S. Mission to
        International Organizations in Vienna (UNVIE) reviewed and con-
        ﬁrmed compliance with all recommendations from the March 2007
        inspection report and concurred with the mission’s responses to the
        three informal recommendations. The CFR made four additional
        recommendations to enhance compliance in executive direc-
        tion and public affairs. The report recommended UNVIE seek an
        independent review of morale, schedule regular meetings to share
        perceptions of well being at the mission, and establish standard op-
        erating procedures for job duties and public diplomacy cooperation.




Overseas Missions



Inspection of Embassy Freetown, Sierra
Leone (ISP-I-08-18A)

The key policy challenge for Embassy Freetown and the U.S. Government was
whether the United States and other donors could sustain the political, security, and
economic support to maintain hope and stability in this war-ravaged country.

OIG’s inspection found Embassy Freetown had been gradually increasing its pres-
ence and its services to preconﬂict levels as Sierra Leone’s situation stabilized, and
the new embassy compound provided secure, attractive, and functional ofﬁce space.

The new embassy compound was constructed on an elevated site outside of Free-
town that did not have a reliable source of water. The Embassy and the Bureau of
Overseas Buildings Operations (OBO) were collaborating to explore a number of al-
ternatives, but had not identiﬁed a long-term solution to this problem at the time of
the inspection. OIG recommended OBO devote all necessary effort and resources
to ﬁnding a long-term solution to satisfy the requirement for water.



36   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Embassy Freetown housing did not meet Department standards, and this had a
negative impact on staff morale. The DCM residence and one apartment building
were particularly unsuitable, and OIG recommended these units be replaced.

The Embassy managed two small grants programs, but ofﬁcers responsible for
managing these programs had not received the appropriate training to perform these
functions. OIG recommended the Embassy develop a plan for these ofﬁcers to
complete training in managing foreign assistance awards, and in responsibilities of
contracting ofﬁcer representatives.

The Embassy’s public diplomacy effort was seriously restricted during the civil war,
with the closure of the Information Resource Center and suspension of most public
programs. While progress had been made since the restoration of normal opera-
tions in 2004, some areas required additional attention. OIG made informal recom-
mendations to staff key local public diplomacy positions and make better use of
regional and electronic assets.




Inspection of Embassy Monrovia, Liberia (ISP-I-08-20A)

OIG’s inspection of Embassy Monrovia noted the United States had moved aggres-
sively to take advantage of the end of Liberia’s 14-year civil war by providing major
support for efforts to assure peace and stability to Liberia’s democratically elected
government and the region. OIG found the mission functioned in a very difﬁcult
environment, with few public services, inadequate ofﬁce space and housing, insuf-
ﬁcient resources, and precarious security conditions. To effectively accomplish its
mission, Embassy Monrovia needed additional resources to address these problems.

The Embassy had carefully and successfully balanced its efforts to ensure effective
delivery of U.S. support with the need to assure adequate security, and working and
living conditions for its employees and their families. Embassy Monrovia’s staff size
had doubled in the last two years in order to execute a series of major assistance pro-
grams to help Liberia’s recovery effort. Further growth is still necessary, but must be
managed carefully.

U.S. Government foreign assistance programs were helping to address sources of
conﬂict and to rebuild the nation. Department-funded programs were making prog-
ress on reforming and rebuilding the security sector and had mechanisms in place for
monitoring their effectiveness, which should be improved. OIG recommended the



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   37
Department conduct regular visits to Embassy Monrovia to ensure effective over-
sight and administration of these foreign assistance programs.

Considerable progress had been made in rebuilding embassy management support
capacity, but much more needed to be accomplished before the Embassy could be
described as fully recovered and operational. Construction of a badly needed new
embassy compound was scheduled to begin in FY 2008. The rightsizing exercise
conducted in preparation for this project was no longer current, and the Embassy
and the Department must urgently prepare the best possible estimate of future space
needs before the construction plan is ﬁnalized.

Adoption requests had skyrocketed in Monrovia, and there was solid evidence adop-
tion agencies have submitted falsiﬁed documents in order to facilitate adoptions.
Embassy resources were insufﬁcient to address this growing problem. OIG recom-
mended the Embassy work with the Bureau of Consular Affairs and DS to develop
both short-term and longer term strategies for dealing with the growing visa and
adoption fraud problems in Liberia.




Inspection of Embassy Algiers, Algeria (ISP-I-08-02A)

OIG’s inspection of Embassy Algiers found the Embassy was playing a major role
in extremely important U.S.-Algerian counterterrorism cooperation, which led to the
dismantling of several networks moving ﬁghters into Iraq and in the struggle against
the newly emergent al-Qaeda in North Africa. The Algerian Government’s empha-
sis on rank and protocol, combined with the Ambassador’s wide range of contacts,
made the Ambassador’s role in achieving the Department’s counterterrorism objec-
tives critical.

The Ambassador had been designated for temporary assignments outside Algiers on
two occasions, and this damaged U.S. ability to deal with the Algerian Government
at high levels on counterterrorism issues. Additionally, it made it difﬁcult to manage
the high volume of important exchanges and events and stretched the Embassy’s
capacity to manage internal issues. OIG recommended the Department exempt the
Ambassador from future temporary assignments outside Algeria, so he could devote
his full efforts to managing the U.S.-Algerian relationship and the Embassy.

Historically, and during this inspection, Embassy Algiers has had considerable
management problems, with signiﬁcant management controls weaknesses caused by
inexperienced American staff and, more recently, an inability to recruit and retain LE


38   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
staff. Lapses in management controls had occurred in procurement and property
management, ﬁnancial management, human resources, grants management, and the
employee association. OIG found no corrective action plans, and designations of
duties had not been properly assigned. OIG recommended the Department tempo-
rarily send an experienced human resources ofﬁcer to Embassy Algiers to assist in
improving human resources services to embassy staff. OIG also made recommen-
dations to improve standard operating procedures and management, inventory, and
access controls.

Embassy Algiers had not been able to retain or adequately train its LE staff
because the mission was not adequately funded to provide salaries commensurate
with comparable employers. Without signiﬁcant LE staff pay increases, improve-
ments in operations will be difﬁcult to achieve and impossible to maintain. OIG
informally recommended the Embassy seek clariﬁcation from the Department
regarding unique conditions of employment pay to determine whether LE staff
might be eligible.



Inspection of Embassy Rabat and Consulate
General Casablanca, Morocco (ISP-I-08-04A)

OIG’s inspection of Embassy Rabat found the Embassy was managing well a major
increase in the bilateral U.S.-Moroccan relationship in counterterrorism, political,
economic, trade, security, and public diplomacy. However, OIG noted communica-
tion within the Embassy needed to be improved in order to assure maximum coordi-
nation of mission goals and programs. Also, inordinate stafﬁng gaps in key positions
and poor job performance by some American supervisors led to poor delivery of key
administrative services.

The Embassy’s political and economic reporting was timely, nuanced, and insight-
ful, drawing upon extensive contact networks. Washington readers awarded it high
marks for both focus and depth of coverage. Embassy Rabat was a ﬂagship for new
U.S. public diplomacy efforts to counter Islamic extremism overseas. However, OIG
noted full implementation of its innovative public diplomacy strategy will hinge on
additional funding.

The International Broadcasting Bureau (IBB), Morocco Transmitting Station, was
well-managed and provided broadcasting and technical services to Europe, the
Middle East, and Africa. But as IBB faces budget constraints, the station faced pos-
sible reduced operations or closure. (See related report, Inspection of the International
Broadcasting Bureau’s Morocco Transmitting Station, ISP-IB-08-05.)

Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   39
Inspection of Embassy Tunis, Tunisia (ISP-I-08-03A)

The inspection of Embassy Tunis found the Ambassador and DCM’s leadership and
policy vision were strong and focused on counterterrorism, political and economic
reform, and support for U.S. Middle East policy. Close interagency cooperation
made all elements in the mission more effective. The management section staff
provided good services to its customers. OIG noted the Foreign Service Institute’s
(FSI) Tunis Arabic Field School provided quality instruction. Moving the school to
the new embassy compound would improve security and administrative support.

The inspection found Embassy Tunis may have more staff than necessary in its
substantive and management functions. Stafﬁng adjustments will require careful
planning and management to maintain good service levels, particularly in preparation
for an expected increase in students at the FSI Arabic Field School by 2012. The
inspectors recommended the Embassy conduct a rightsizing review of stafﬁng at the
mission.

The Embassy’s combined political and economic section was reporting well on
signiﬁcant developments and supporting high-level visits to Tunisia; however, OIG
recommended the classiﬁed Web site be reviewed and regularly updated. The overall
security program was excellent, but the inspectors outlined some speciﬁc areas for
improvement.

The Middle East Partnership Initiative’s (MEPI) regional ofﬁce in Tunis was sup-
porting programs in seven Mediterranean countries, improving coordination with the
U.S. embassy in each country, and actively engaging in public outreach. The inspec-
tors found, however, that despite already tight resources, the public affairs section
provided extensive unreimbursed support to MEPI’s implementation of programs
in Tunisia. The report recommended Embassy Tunis conduct an analysis of staff
support that could be conducted by eligible family members and request adequate
resources from the initiative to fund that work.



Inspection of Embassy Yerevan, Armenia (ISP-I-08-01A)

OIG inspected Embassy Yerevan and found it effectively carried out U.S. priorities
in Armenia as reﬂected in the Mission Strategic Plan. The Embassy had productive
relations with Armenia’s leadership, and in 2007, it mounted a successful effort to


40   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
persuade Armenian ofﬁcials and the public to make progress toward meeting inter-
national election standards.

Embassy Yerevan leadership managed a complex U.S. assistance program, with one
of the highest per capita spending levels in the world. The Embassy had an assis-
tance coordination group, which would have been even more effective with more
formal information-sharing mechanisms. OIG informally recommended the Embas-
sy establish thematic working groups to promote discussion among embassy ofﬁces
and simplify decision making by the embassy-wide assistance coordination group.

The consular section provided good customer service, but consular management
needed to implement some workﬂow improvements to increase efﬁciency in prepa-
ration for the FY 2008 loss of one ofﬁcer position. OIG recommended realign-
ments in supervisory authorities and streamlining correspondence to improve opera-
tions.

Overall, OIG found the management section was providing excellent support to the
Embassy. The results of surveys of the section’s clientele were extraordinarily posi-
tive. Much of the credit was due to the abilities and uniformly high level of exper-
tise of the Armenian staff.



Inspection of Embassy Astana and Embassy Branch
Ofﬁce Almaty, Kazakhstan (ISP-I-08-11A)

OIG’s inspection of Embassy Astana found that, one year after a challenging move
from Almaty, the Embassy was still functioning in a start-up mode, and there were
still rough edges to the operation. OIG noted the policy objective of reorienting
U.S. policy in Central Asia, to focus on north-south linkages rather than the historic
ties to Russia and Europe, was an uncertain experiment. This change required cross-
ing bureaucratic lines in the Department in terms of programmatic control, policy
direction, and regional support.

In terms of number of staff, Embassy Astana should be more rigorous in evaluating
relevant functions before requesting or approving increases in American direct-hire
employees. OIG reviewed the NSDD-38 process with the Embassy and suggested
ways to develop a more comprehensive decision package to identify the real costs
underlying any increase in U.S. direct-hire stafﬁng. OIG recommended Embassy As-
tana follow NSDD-38 guidelines to perform and document a comprehensive analysis
of both programmatic and administrative requirements prior to deciding on requests
to increase personnel.

Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   41
Almaty is the cultural, commercial, ﬁnancial, and transportation center of the coun-
try, and the U.S. Government should have a continuing presence in that city. At the
time of the inspection, Almaty was the logical center for U.S. Government regional
operations in Central Asia. There were persuasive reasons for Almaty to be the
location of the regional ofﬁces of USAID, the Foreign Commercial Services, and
the Centers for Disease Control and Prevention. Potentially, these will be joined by
staff from the Drug Enforcement Administration. By agreement with the Congress,
Department stafﬁng was capped at ﬁve positions in Almaty. OIG recommended the
Department propose lifting the cap on stafﬁng.

Geographic isolation and a harsh climate were among the factors that hampered re-
cruitment of American staff for Embassy Astana. The availability of more lucrative
employment in the private sector complicated recruitment and retention of LE staff.
The U.S. Government was a marginally competitive employer in Kazakhstan. OIG
recommended the Embassy review the methodology for performing salary surveys,
improve home-to-work transportation for LE staff, and perform a new cost-of-living
survey.



Inspection of Embassy Bishkek, Kyrgyzstan
(ISP-I-08-14A)

During OIG’s inspection of Embassy Bishkek, ofﬁce space issues dominated all
operational considerations. OIG noted construction of a new embassy compound
would be the optimal solution, and the proposed construction of an unclassiﬁed an-
nex would be only a short-term solution to a longer-term need for additional space.
OIG recommended the Department update its 2004 long-range facilities plan to
reﬂect current and future projected stafﬁng needs in Bishkek.

OIG stated future space planning must reﬂect a coordinated assessment of potential
expansion in staff requirements. The number of direct-hire Americans assigned to
Embassy Bishkek had grown in a somewhat uncontrolled fashion. At the time of
the inspection, the Ambassador had agreed to additional staff for a Millennium Chal-
lenge Corporation unit. Beyond those projected additions, OIG recommended fur-
ther expansion should be put on hold until ofﬁce space issues had been addressed.




42   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
The Manas Air Base, opened in December 2001, supports coalition military opera-
tions in Afghanistan. The importance of the base further increased after a similar
facility in Uzbekistan was forced to shut down. At present, all U.S. military forces
moving in and out of Afghanistan transit through Manas, as does a signiﬁcant
amount of materiel. The presence of the base and the continuation of the conﬂict
in Afghanistan are the essence of Kyrgyzstan’s strategic importance to the United
States. OIG noted parallel work to improve the mutual understanding between the
base command and the Embassy was essential, and recommended Embassy Bish-
kek work with the Manas Air Base commander to establish a joint working group to
meet regularly to discuss matters of common interest.



Inspection of Embassy Dushanbe, Tajikistan
(ISP-I-08-17A)

OIG’s inspection of Embassy Dushanbe found operations were hampered by fre-
quent turnover of American personnel. At the time of the inspection, 65 percent
of the Department direct-hire Americans had been at post for two months or less.
At this medium-sized embassy, there was little depth in any of the units or sections.
The relative inexperience among the American staff was ameliorated by the Ambas-
sador, DCM, and chiefs of other agencies, who had been at post for more than a
year. The LE staff played an ever-more important role in continuity of operations,
but not all of them were well-trained to carry out those responsibilities.

Physical separation inherent in the design of the new chancery, primarily because of
security requirements, engendered a sense of disenfranchisement among LE staff
that previously had interacted more directly with their American supervisors. There
was a strong perception of cultural insensitivity by American ofﬁcers in dealing with
local employees. In addition, the LE staff believed Equal Employment Opportunity
(EEO) was not working.

The Ambassador’s moratorium on approving NSDD-38 requests for additional staff
positions for other agencies was well-founded and should continue until the manage-
ment team is staffed adequately to handle the workload implicit in any such
expansion.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   43
Inspection of Embassy Brasilia, Brazil, and
Constituent Posts (ISP-I-08-15A)

During its inspection of Embassy Brasilia, OIG found the Ambassador had
reinvigorated the important bilateral relationship with Brazil, a regional powerhouse
with potential to act as a counterbalance to the populist nationalism promoted by
Venezuela. Brazilians welcomed his willingness to travel extensively throughout the
country, but embassy section chiefs and heads of other agencies reported the num-
ber of initiatives and their lack of understanding of the Ambassador’s prioritization
had inhibited their ability to meet mandated goals and objectives.

The NIV workload had grown at a pace that far exceeded long-range forecasts.
Lengthy wait times for visa appointments had hurt the image of the United States.
Brazil’s consular operations were seriously under-resourced, and morale had suffered.
Additional ofﬁcer positions had been approved, but even more new ofﬁcer posi-
tions were needed to right-size consular operations. OIG made recommendations
to create a deputy NIV chief position for the consular section in Sao Paulo, add an
additional six entry-level ofﬁcer positions for nonimmigrant visa work in Brazil, and
fund a commensurate additional increase in LE staff for NIV operations. OIG also
recommended the Embassy expand the intake capacity, waiting area, and number of
windows in Sao Paulo and install a sophisticated queuing system to allow for elec-
tronic veriﬁcation of appointments and to allow multiple streams of queues in NIV
processing. In addition, OIG recommended the Embassy redesign the consular
work area in Rio de Janeiro and furnish it to accommodate increased ofﬁcer and LE
staff positions.

Narcotics assistance programs in Brazil had largely been suspended while the mission
tightened management controls and oversight. Resuming these important programs
will require more veriﬁable agreements with Brazilian authorities and better infor-
mation sharing and coordination among the mission’s many law enforcement agen-
cies. OIG recommended the Embassy make the heads of its political and narcotics
assistance sections members of its law enforcement working group; ensure they are
included, as appropriate, in policy deliberations; and distribute minutes of the work-
ing group’s meetings.

The U.S. Mission to Brazil had approved a number of new American direct-hire
positions, primarily for other agencies, but the Ambassador’s decision to approve
was not based on a complete summary of all costs related to the stafﬁng expan-
sion, nor did the justiﬁcations clarify how the responsibilities of these new positions




44   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
would differ from similar existing positions already operating within Brazil. OIG left
several informal recommendations to address these issues. The mission also did not
ensure adequate workspace was available before approving new NSDD-38 positions.
OIG recommended Embassy Brasilia cease the approval of additional direct-hire
positions until adequate working space has been identiﬁed, and review and revise its
chancery building plan to ensure that all direct-hire employees have adequate and
secure working space.

The performance of Embassy Brasilia’s management had been handicapped by
lapses in oversight that have resulted in signiﬁcant management control weaknesses,
particularly in the travel program in Brasilia and in contracting and property in Rio
de Janeiro. OIG made several recommendations to address these weaknesses.



Limited-Scope Inspection of Embassy Belmopan,
Belize (ISP-I-08-13)

OIG conducted a limited-scope inspection of Embassy Belmopan and found the
move from Belize City to Belmopan in November 2006 had a detrimental effect on
policy operations and morale, particularly that of the LE staff. The inspection noted
the need for some form of stationary embassy presence in Belize City, which was still
the political, economic, and commercial center of the country and the destination of
between 800,000 and one million American tourists each year. OIG recommended
the Department seek a Belize Government partner to host an embassy ofﬁce in Be-
lize City or explore some other arrangement to meet its ofﬁcial needs there.

The apprehension and return of fugitives to the United States, though highly suc-
cessful, was an unfunded activity that came out of International Cooperative Ad-
ministrative Support Services resources, with reimbursement only for the last stage
of international transportation. The apprehension work overburdened the regional
security ofﬁcer. OIG recommended the Department support Embassy Belmopan’s
well-justiﬁed request to establish an assistant regional security ofﬁcer position to con-
tinue to support this work.

The build-to-lease housing project for Embassy Belmopan must be considered a
success. The project went from concept to completion in only 20 months, a period
that allowed embassy personnel to occupy the housing at the same time that the
new chancery compound became ready for use. The homes were spacious, well-
appointed, and situated on a private, well-landscaped compound that provided a



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   45
tranquil, suburban-like setting. The security features of the compound provided the
occupants in this high-crime post with a comfortable sense of security. However,
the build-to-lease program suffered from design and technical problems, limited con-
struction management oversight, high lease costs, and disputes over operation and
maintenance expense payments between OBO and the Embassy.

Resource management had beneﬁted signiﬁcantly from the strong support of the
Charleston Global Financial Services Center and especially the Florida Regional Cen-
ter (FRC), whose frequent visits for training and evaluation had strongly supported
ﬁnancial and human resources management and general services. Because at least
13 key LE staff have left the Embassy due to the move to Belmopan, as well as the
difﬁcult commute for those still living in Belize City, the Embassy must call upon the
FRC to help provide training for the replacement LE staff.



Limited-Scope Inspection of Consulate General
Curacao, Netherlands Antilles (ISP-I-08-16)

OIG’s limited-scope inspection of Consulate General Curacao found an active post
with wide responsibilities and an important military adjunct. The post managed a
difﬁcult national security mission with skill and with full support to other U.S. Gov-
ernment entities. Interagency relationships were excellent.

Consulate General Curacao was not rightsized. Without the addition of LE staff
resources to support the reporting functions and consular services, it will not be
able to carry out tasks that urgently cry out for attention. Outstanding performance
by an overstretched entry-level ofﬁcer and overtaxed LE staff could not offset
this shortcoming. The consulate general ofﬁces, while well-equipped, were very
cramped. The post lacked adequate space for current personnel and operations, yet
must increase staff.

The experiment in restoring NIV services to Consulate General Curacao, which
began March 2007, achieved its aims of providing better service to host country
nationals and determining the requirements of such service. The Bureau of Con-
sular Affairs was correct in its September 2007 decision to continue the services at
a reduced level, because the unexpected surge in applicants had overwhelmed this
small post.

As with Embasy Belmopan, resource management at Consulate Curacao had
beneﬁted signiﬁcantly from the support of the Charleston Global Financial Services
Center and especially the FRC, whose frequent visits for training and evaluation had

46   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
strongly supported ﬁnancial and human resources management and general services.
Given that post was without a management ofﬁcer for almost an entire year, support
visits from the FRC, and especially stints by the FRC regional human resources
ofﬁcer as acting management ofﬁcer, were critically important to post operations.



Limited-Scope Inspection of Embassy Georgetown,
Guyana (ISP-I-08-19)

OIG’s limited scope inspection of Embassy Georgetown found mission leadership
had organized and orchestrated an operational policy tied generally to Mission Stra-
tegic Plan objectives, while speciﬁcally and effectively aimed at areas of greatest po-
tential effect. Leadership was strong and visionary, and interagency cooperation was
excellent. The embassy had tried to encourage standards and improve performance
in an uneven workforce while raising the overall quality of resource management.

The public perception of the United States was good. With limited resources de-
voted to public affairs, a generally positive treatment in print and broadcast media
was gratifying in its regularity, its breadth of coverage, and its attribution to Ameri-
can sources. However, communications and outreach were not well-coordinated and
were hampered by a shortage of resources. OIG recommended the Embassy imple-
ment a coordinated interagency public diplomacy strategic communication plan and
request funding for a new LE staff person to be dedicated full time to public affairs
work.

Resource management had beneﬁted signiﬁcantly from the strong support of the
Charleston Global Financial Services Center and especially from the FRC. Their
frequent visits for training and evaluation brought about major improvements in
ﬁnancial and human resources management and general services. In human re-
sources management, Embassy Georgetown was hampered by stafﬁng difﬁculties on
the American side, and in local terms by an environment where the labor pool was
thin, poorly trained, and poorly motivated. The termination of 28 LE staff over the
past two years illustrated the problem. OIG recommended the Embassy develop
standard operating procedures by position to facilitate the training of newly hired LE
staff and to strengthen the performance of others who, though longer tenured, are
still underperforming.

The consular section was staffed by an assortment of Civil Service ofﬁcers on excur-
sion tours, out-of-cone and entry-level Foreign Service ofﬁcers, and a consular as-
sociate. It was functioning adequately in very difﬁcult circumstances but was helped
by its outreach programs. The nonimmigrant visa refusal rate was approximately
Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   47
two-thirds of all applicants. Aggressive anti-fraud measures were required for the
large immigrant visa clientele and for American citizens services work.



Limited-Scope Inspection of Embassy Nassau, The
Bahamas (ISP-I-08-22)

OIG’s limited-scope inspection of Embassy Nassau found the mission had ben-
eﬁted from widely praised policy leadership, good interagency relations, and excellent
resource management, although several problems in personnel management needed
attention. It pursued its policy goals in a friendly environment that featured excellent
cooperation from the host government.

The mission realistically devoted most of its operational efforts to three of its stra-
tegic goals: counternarcotics and crime; assistance to American citizens and travel-
ers; and nurturing the excellent bilateral relationship. In counternarcotics and crime,
it had maintained the highly successful tradition of its predecessors. Less visible
results attended the latter two goals, but the inspection found both of them to be the
beneﬁciaries of dedicated and energetic professionalism.

The Embassy’s heavily law enforcement-oriented mission gave it an unusual imbal-
ance of 37 direct-hire Department employees and 106 full-time representatives of
seven other agencies. The post also housed a long-established and very successful
antinarcotics command center. The agencies consider themselves well supported.

The Embassy’s support infrastructure needed strengthening in information manage-
ment, and in its ability to respond to growing commercial and investment interest in
the Bahamas. OIG recommended an additional local position to support economic
and commercial activities, and the establishment of a part-time consular agent. OIG
also recommended the Embassy ﬁll two vacant positions.




48   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                            Developing Global Themes
While OIG conducts inspections and makes recommendations for speciﬁc posts or
bureaus on a post-by-post basis, the cumulative impact on Department operations
is more evident when the results of multiple inspections are viewed as an aggregate.
Repeated identiﬁcation of common problems at multiple embassies may reveal a
worldwide weakness. During this reporting period, ISP piloted model limited-scope
inspections of small posts in the Caribbean region, including Belmopan, Curacao,
Georgetown, and Nassau. The results of those four inspections as well as full-
scope inspections of Embassies Algiers, Astana, Bishkek, Brasilia, Dushanbe,
Freetown, Monrovia, and Rabat, underlined trends initially noted during earlier
inspections. Identifying such trends can help the Department develop systemic
solutions to widespread problems, resulting in a more efﬁcient global response.
Systemic issues identiﬁed by OIG during this reporting period are discussed below.

Transformational Diplomacy

In recent years, several Caribbean basin posts have had to cut their public affairs
ofﬁcer (PAO) positions at the same time that public diplomacy is becoming an
increasingly important part of embassy operations requiring professional guidance.
While resources are not available to recreate all of the PAO positions that have been
cut, a regional position could support multiple posts at a fraction of the cost. In-
spectors in Georgetown recommended the establishment of a regional public diplo-
macy ofﬁcer position that could support the several Caribbean basin posts that have
lost their PAO positions.

The Ofﬁce of the Director of Foreign Assistance is developing its coordinating role
for overseas foreign assistance activities. However, several of the inspections
conducted during this reporting period indicate separate USAID and Department
entities are supplying redundant assistance programs in a number of countries.
These redundancies, while difﬁcult to address on a country-by-country basis, could
be resolved by senior decision makers at post and in Washington reviewing both
in-country and regional support. In Brasilia, for example, inspectors recommended
the Embassy establish a foreign assistance coordinating group to get a mission-
wide understanding of the scope of all U.S. assistance to the country. Inspections
in Africa and Afghanistan have noted the same lack of clarity on total assistance
to a country or region and inspection teams encourage the work of the Ofﬁce of
the Director of Foreign Assistance in leading a global effort to identify sources and
amounts of assistance.

Similarly, as functional bureaus continue to support transformational diplomacy by
offering grants through embassies, several inspections have identiﬁed as a common
problem the inadequate training of ofﬁcers asked to manage grants. Inspectors
recommended grants management ofﬁcers be required to complete the Depart-
ment’s training course on Managing Foreign Assistance Awards (Freetown).


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   49
Mission Stafﬁng
As American staff face increased stress and turnover, and as the weaker dol-
lar makes it more difﬁcult to fund local salaries, OIG is seeing worldwide trends
that lead to dissatisfaction among an essential human capital element of any
embassy – the LE staff. Recommendations during this reporting period that
have appeared in earlier inspections include the need to review salary surveys or
conduct new reviews to ensure LE staff salaries are comparable to those for local
companies (Astana, Bishkek, and Dushanbe); to hire additional LE staff to sup-
port economic, political, and commercial work and provide consular support for
the peak NIV period (Curacao and Nassau); to review legal obligations to LE staff
(Morocco); to improve communication and training, and develop LE staff hand-
books (Algiers, Belmopan, Brasilia, Dushanbe, and Georgetown); and to arrange
for electronic payment of LE staff salaries (Algiers).

While EEO concerns have become an integral part of Department management,
fundamental support for the initiative was lacking in many overseas missions.
During this period, inspectors recommended establishing and training EEO coun-
selors at several embassies (Algiers, Bishkek, Dushanbe, and Freetown).



Overseas Facilities

In recent years, OBO has designed and built new embassy compounds providing
missions with secure, modern, and expeditiously executed facilities. However,
inspection teams have begun to identify common problems, including poorly
planned consular waiting spaces, an insufﬁcient number of interview windows,
and the need for improved security entrances. Recommendations made to ad-
dress problems identiﬁed during this reporting period have included installing
closed-circuit television systems in consular sections to improve oversight by
section chiefs (Belmopan and Georgetown); expanding NIV waiting areas and
adding additional windows (Belmopan and Brasilia) and improving access con-
trols and secondary escape routes (Astana and Nassau).

Residential property was also found to be a concern. Surprisingly, while the
COM and regular staff housing was generally well-managed and maintained,
OIG has seen a trend in problems with DCM residences. Recommendations to
address these issues included designating an ofﬁcial DCM residence (Dushan-
be), relocating the existing residence (Freetown), clarifying escape routes (As-
tana), and requesting ofﬁcial residence expenses (Dushanbe).




50   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                          INVESTIGATIONS




Followup Actions


Visa Mafeasance or Fraud

OIG conducted a joint investigation with the U.S. Department of Labor, Ofﬁce of
Inspector General; the U.S. Department of Homeland Security, Bureau of Immigra-
tion and Customs Enforcement (ICE); and DS, of a construction company allegedly
committing employment-based visa fraud by ﬁling labor certiﬁcations for workers
they did not intend to employ. The investigation determined the company ﬁled more
than 65 labor certiﬁcations for foreign workers, many of which never worked for the
company, and paid in excess of $20,000 for their labor certiﬁcations. The president
of the construction company pleaded guilty to a one-count criminal information
charging him with conspiracy to commit visa/immigration fraud and making false
statements. The company president also agreed to an order of forfeiture in the
amount of $250,000.

On September 12, 2007, two co-conspirators were indicted on seven counts relat-
ing to the scheme. On November 8, 2007, the company president was sentenced to
21 months of incarceration to be followed by two years of supervised release. On
January 23, 2008, the other co-conspirators pleaded guilty to one count each. The
company vice president also agreed to a forfeiture order in the amount of $300,000.
These two co-defendants are expected to be sentenced in April 2008. (See OIG Semi-
annual Report, April 1, 2007, to September 30, 2007, pp 61)

OIG conducted a joint investigation with the U.S. Department of Labor, Ofﬁce
of Inspector General; the U.S. Department of Homeland Security, ICE; and the
Internal Revenue Service, Criminal Investigations, of an immigration and tax prepa-
ration company allegedly committing employment-based visa fraud. Investigation
determined the company fraudulently ﬁled numerous labor certiﬁcations for foreign
workers on behalf of current and former clients without their knowledge. Both the
owner and ofﬁce manager of the company have pleaded guilty to one-count criminal
informations charging them with conspiracy to commit visa/immigration fraud. The
company owner also agreed to an order of forfeiture in the amount of $275,000.


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   51
As a result of the investigation, a total of ﬁve defendants were convicted of immi-
gration fraud. On February 28, 2008, the owner of the company was sentenced to
27 months of incarceration, two years of supervised probation, and a $100 special
assessment fee. He also turned over a 1991 Mercedes 5500 automobile as collateral
for his portion of the court-ordered forfeiture. The ofﬁce manager was sentenced
to ten months of incarceration, two years of supervised released, and will be consid-
ered by ICE for deportation. (See OIG Semiannual Report, April 1, 2007, to September
30, 2007, pp 62)




               Investigators Receive Public Service Award

      On April 18, 2008, Assistant Special Agent in Charge (ASAC) Albert
      Makay received the Law Enforcement Public Service Award from the
      U.S. Attorney’s Ofﬁce for Eastern District of Virginia in Alexandria. ASAC
      Makay was presented the award by Assistant Attorney (AUSA), Michael
      Rich for his outstanding work on a visa and labor certiﬁcation fraud inves-
      tigation that resulted in three criminal convictions and more than $550,000
      in asset forfeitures. This was the second occasion on which ASAC Makay
      has received this award for his outstanding work in conducting visa fraud
      investigations. In introducing the award, AUSA Rich referred to ASAC
      Makay and Jim Powell from the Department of Labor OIG, as the “Dream
      Team” for their outstanding work on visa fraud investigations over the past
      two years.




Passport Fraud
OIG conducted an investigation of a German national who assumed the identity of
a deceased infant to obtain a U.S. passport. When interviewed by OIG, the subject
related the story of how she and her German national husband had come to the
United States in 1975 to work on a cruise line. She said her ex-husband had obtained
the identity documents of two deceased infants of American citizens for them to
use. Both she and her ex-husband established American citizenship using the false
documents and then obtained U.S. passports.

On August 23, 2007, the subject was indicted on two counts of making false state-
ments on her application for a U.S. passport and application for citizenship. OIG
arrested her the same day. On December 7, 2007, the subject pleaded guilty to one


 52    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
count of the indictment. On February 13, 2008, she was sentenced to time served
and had her U.S. citizenship revoked.

As a result of the information provided by the subject, on February 21, 2008, her
ex-husband was indicted on ﬁve counts of using a passport secured by false means.
OIG arrested him the next day. Prosecution of the ex-husband is currently pending.
(See OIG Semiannual Report, April 1, 2007, to September 30, 2007, pp 62)




False Claims
OIG conducted a joint investigation with the Department of Housing and Urban
Development’s OIG into allegations that a Department employee had committed
Section 8 rental assistance fraud by underreporting her income, falsifying employ-
ment documents, and altering her wage statements to qualify for the housing subsidy.
When interviewed, the employee confessed to the allegations and, in addition, admit-
ted also to underreporting her income to receive Food Stamps, Medicaid, and tem-
porary assistance for needy families. On November 9, 2006, the employee’s security
clearance was suspended. The employee notiﬁed the Bureau of Human Resources
of her intent to resign from the Department effective December 1, 2006.

The subject accepted a plea agreement to two counts, including false claims and
fraud in obtaining public assistance. On September 18, 2007, the subject was sen-
tenced to 36 months of probation on each charge, was ordered to repay $50,384 in
restitution to the District of Columbia, and was disqualiﬁed from receiving public
assistance beneﬁts for a period of six months. (See OIG Semiannual Report, October 1,
2006, to March 31, 2007, pp 44)



Metrochek Beneﬁt Fraud
OIG conducted separate investigations of two Department employees who commit-
ted transit subsidy fraud.

The ﬁrst investigation was opened after OIG was notiﬁed by an agent from GAO
that a Department employee was selling on the Craigslist Website Metrocheks that
were issued to her by the Department for commuting purposes. Agents from both
OIG and GAO met the employee on a street corner in Washington and purchased
$210 worth of Metrocheks from her for $160. The employee was interviewed and



Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   53
stated she was unaware she could not sell the Metrocheks and said she considered
them to be a government perk. The case was declined for criminal prosecution, and
OIG referred the matter to the Bureau of Human Resources (HR) for consideration
of disciplinary action. HR originally proposed termination of the employee, but
on January 2, 2008, HR notiﬁed OIG the termination had been reduced to a 30-day
suspension.

The second investigation was based on a referral from the Library of Congress OIG
that a Department employee was selling, on eBay’s website, Metrocheks issued for
commuting. The employee was interviewed and stated he was unfamiliar with the
rules of the Metrochek program, even though he had signed a certiﬁcation every
time he accepted Metrocheks from the Department stating he would not transfer
them. This case was declined for criminal prosecution, and OIG referred the matter
to HR for disciplinary action. On October 10, 2007, the HR proposed termination
of the employee, but the employee transferred to another agency before ﬁnal action
was taken.



Types of Cases*




               * = May not equal 100% due to rounding.


54   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Hotline
 Held for action within OIG                      45
 Referral to other ofﬁces for action            131
 No action necessary                             81
 Total allegations received                     257




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   55
56   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES


     Criminal Investigative Activities
     Indictments/Informations                                               2
     Convictions                                                            6
     Sentencings                                                            8
                   -Jail                                                    49 Months
                   -Probation                                               264 Months
     Referrals for Prosecution                                                  6
     Referrals for Prosecution Declined                                         7
     Criminal Judgments/Restitutions                                        $625,484.00


     Civil Investigative Activities
     Civil Referrals                                                        0
     Civil Declinations                                                     0
     Civil Recoveries                                                       0


     Administrative Investigative Activities
     Administrative Referrals                                               4
     Personnel Actions
                   -Removals                                                2
                   -Suspensions                                             0
                   -Reprimands/Admonishments                                0
                   -Reimbursements                                          0
     Administrative Recoveries                                              0
     Total Investigative Recoveries (Judicial and Administrative)          $625,484.00


     Investigative Workload
     Cases Pending (09/31/07)                                             51
     New Cases Opened                                                     15
     Cases Closed                                                         14
     Cases Pending (3/31/08)                                              52
     Preliminary Inquiries Pending (09/30/07)                              3
     Preliminary Inquiries Opened                                         12
     Preliminary Inquiries Closed                                           8
     Preliminary Inquiries Converted to Cases                               1
     Preliminary Inquiries Pending (03/31/08)                               7

      Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   57
58   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                    APPENDIX 2: REPORTS ISSUED



 AUD/CG-08-01             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by National
                          Council for International Visitors
 AUD/CG-08-02             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Costs Claimed by Young Men’s Christian
                          Association of Greater New York Under Department of State
                          Grants
 AUD/CG-08-08             Independent Accountants Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by America-
                          Mideast Educational and Training Services, Inc.
 AUD/CG-08-10             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by NAFSA:
                          Association of International Educators
 AUD/CG-08-11             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by Sister Cities
                          International, Inc.
 AUD/CG-08-13             Independent Accountants’ Report on the Application of
                          Agreed-Upon Procedures on Indirect Cost Rates Proposed by
                          International Center for Journalists, Inc.
 AUD/CG-08-14             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by the Institute
                          for Training and Development
 AUD/CG-08-15             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by United
                          States Conference of Catholic Bishops
 AUD/CG-08-16             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on Indirect Cost Rates Proposed by the
                          International Rescue Committee, Inc.
 AUD/CG-08-20             Independent Accountants’ Report on the Application of Agreed-
                          Upon Procedures on the Financial Capability of International Arts
                          and Artists, Inc.
 AUD/FM-08-03             Independent Auditor’s Report on the Department of State’s
                          Special-Purpose Financial Statements
 AUD/FM-08-05             Independent Auditor’s Report on the Department of State’s 2007
                          and 2006 Financial Statements
 AUD/IP-08-19             Safeguarding Domestic Passport Applications During Transit




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   59
AUD/PP-08-17	           Attestation Review of Annual Accounting of Drug Control Funds
                        and Performance Summary by the Department of State for FY
                        2007
AUD/SI-08-21	           Concern With the Department’s Replacement of Body Armor


ISP-C-08-08	            Compliance Follow-up Review of the U.S. Mission to
                        International Organizations in Vienna

ISP-I-08-01A	           Inspection of Embassy Yerevan, Armenia


ISP-I-08-02A	           Inspection of Embassy Algiers, Algeria


ISP-I-08-03A	           Inspection of Embassy Tunis, Tunisia


ISP-I-08-04A	           Inspection of Embassy Rabat and Consulate General Casablanca,
                        Morocco

ISP-I-08-09	            Inspection of Rule-of-Law Programs in Afghanistan


ISP-I-08-11A	           Inspection of Embassy Astana and Embassy Branch Ofﬁce
                        Almaty, Kazakhstan

ISP-I-08-13	            Inspection of Embassy Belmopan, Belize


ISP-I-08-14A	           Inspection of Embassy Bishkek, Kyrgyzstan


ISP-I-08-15A	           Inspection of Embassy Brasilia, Brazil, and Constituent Posts


ISP-I-08-16	            Limited-Scope Inspection of Consulate General Curacao,
                        Netherlands Antilles

ISP-I-08-17A	           Inspection of Embassy Dushanbe, Tajikistan


ISP-I-08-18A	           Inspection of Embassy Freetown, Sierra Leone


ISP-I-08-19	            Limited-Scope Inspection of Embassy Georgetown, Guyana

ISP-I-08-20A	           Inspection of Embassy Monrovia, Liberia



ISP-I-08-22	            Limited-Scope Inspection of Embassy Nassau, Bahamas




60   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
 ISP-I-08-23	             Review of the Ofﬁce of the Global AIDS Coordinator

 ISP-IQO-08-24	           Assessment of the State of Emergency Planning at Embassy
                          Baghdad and Embassy Kabul

 ISP-S-08-01A	            Classiﬁed Annex to the Inspection of Embassy Yerevan, Armenia


 ISP-S-08-02A	            Classiﬁed Annex to the Inspection of Embassy Algiers, Algeria


 ISP-S-08-03A	            Classiﬁed Annex to the Inspection of Embassy Tunis, Tunisia


 ISP-S-08-04A	            Classiﬁed Annex to the Inspection of Rabat and Consulate
                          General Casablanca, Morocco

 ISP-S-08-11A	            Classiﬁed Annex to the Inspection of Embassy Astana and Branch
                          Ofﬁce Almaty, Kazakhstan

 ISP-S-08-14A	            Classiﬁed Annex to the Inspection of Embassy Bishkek,
                          Kyrgyzstan

 ISP-S-08-15A             Classiﬁed Annex to the Inspection of Embassy Brasilia, Brazil,
                          and Constituent Posts

 ISP-S-08-17A             Classiﬁed Annex to the Inspection of Embassy Dushanbe,
                          Tajikistan

 ISP-S-08-18A             Classiﬁed Annex to the Inspection of Embassy Freetown, Sierra
                          Leone

 ISP-S-08-20A	            Classiﬁed Annex to the Inspection of Embassy Monrovia, Liberia


 SIA-08-01	               Review of the Department of State’s Terrorist Watch List
                          Nomination Process

 SIA-08-02	               Review of the Department’s Terrorist Watch List Nomination
                          (Visas Viper) Process

 SIA-08-03	               Review of Department of State Headquarters Cable Drafting and
                          Distribution Process




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   61
62   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES



                              Table 1

              INSPECTOR GENERAL ISSUED AUDIT REPORTS

                      WITH QUESTIONED COSTS

                  Type of Report            Number of 
   Question Costs    Unsupported Costs
                                             Reports
      (Dollars in         (Dollars in
                                                           Thousands)          Thousands)
      A.   For which no management
           decision has been made by the
           commencement of the reporting        11           $41,387              $28,088
           period

      B.   Which were issued during the
           reporting period                     3              $122                $116

           Subtotals (A + B)                   14            $41,509              $28,204

      C.   For which a management
           decision was made during
           the reporting period based           3              $688
           on formal administrative or
           judicial appeal

           (i) dollar value of disallowed
           costs                                               $91

           (ii) dollar value of costs not
           disallowed                                          $597

      D.   For which no management
           decision has been made by the        11           $40,820              $28,204
           end of the reporting period
           Reports for which no
           management decision was
                                                3             $6,538               $664
           made within six months of
           issuance




     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   63
                           Table 2

         INSPECTOR GENERAL ISSUED AUDIT REPORTS

            WITH RECOMMENDATIONS THAT FUNDS 

                   BE PUT TO BETTER USE



                     Type of Report                    Number of Reports       Dollar Value
                                                                             (in Thousands)
A.    For which no management decision has been                1                 $1,986
      made by the commencement of the reporting
      period

B.	   Which were issued during the reporting period            1                 $16,000

      Subtotals (A + B)                                        2                 $17,986

C.	   For which a management decision was made                 2                 $17,986

      during the reporting period

      (i) dollar value of recommendations that were                              $16,397

      agreed to by management
      (ii) dollar value of recommendations that were                             $1,589

      not agreed to by management
D.	   For which no management decision has been                0                   $0                    

      made by the end of the reporting period

      Reports for which no management decision was             0                   $0                    

      made within six months of issuance




64    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS




     Previously Reported Signiﬁcant Recommendations
     Pending Final Action


      Report             Rec.   Report Title                                                                  First
      Number             No.    Recommendation Summary                                                       Reported
      SIO-A-02-55               Memorandum Report Special Review of Main State Security                            9/02

                           2    OIG recommended the Department install interior hard lines that provide
                                15 minute forced-entry, ballistic-resistant protection at every Main State
                                lobby. These hard lines should be supplemented with 15-minute forced-
                                entry, ballistic-resistance guard booths to ensure all passage through the
                                hard line is controlled.

      AUD/FM-05-06              Assessment of the Certiﬁcation and Accreditation, Change Management,            11/04
                                and Patch Management Process

                           1    OIG recommended the Bureau of Information Resource Management
                                revise the security test and evaluation of the certiﬁcation and
                                accreditation process to include a complete vulnerability scan of the
                                systems being assessed.
      AUD/CG-06-26              Independent Accountants’ Report Agreed-Upon Procedures on Choctaw                  5/06
                                Archiving Enterprise’s Proposed Direct Labor and Indirect Labor Rates
                                and Accounting System

                           1    OIG recommended the Bureau of Administration, Ofﬁce of Logistics
                                Management, Ofﬁce of Acquisitions, use the recommended rates set
                                forth in Schedule A-2 to price delivery orders that Choctaw will perform
                                under the proposed contract.


      IT-I-06-03                Review of the Information Security Program at the Department of State           10/06

                           1    OIG recommended the Chief Information Ofﬁcer verify information
                                security roles and responsibilities for the Department are clearly deﬁned,
                                to include at a minimum, compliance with the Federal Information
                                Security Management Act (FISMA).
                           2    OIG recommended the Chief Information Ofﬁcer develop and
                                implement an agency-wide information security program plan based
                                upon and supported by clearly deﬁned information security roles and
                                responsibilities.

     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008         65
                     3    OIG recommended the Chief Information Ofﬁcer verify that all
                          information technology assets for the Department are reported and
                          accounted for within a comprehensive inventory process.

                     4    OIG recommended the Chief Information Ofﬁcer implement parameters
                          (as deﬁned in the Federal Information Security Management Act) to
                          be used for identifying all contractor systems to be included in the
                          Department’s inventory.

                     6    OIG recommended the Chief Information Ofﬁcer establish a
                          comprehensive plan for the Information Systems Security Ofﬁcer
                          program that includes consistent prioritization of duties and training.

                     7    OIG recommended the Chief Information Ofﬁcer develop a process for
                          determining an accurate total number of Department employees for all
                          employees required to take information security awareness training.

                     9    OIG recommended the Chief Information Ofﬁcer revise policies
                          to ensure that information technology security ﬁndings and
                          recommendations from external and internal reviews are being addressed
                          in the plans of action and milestones process.

AUD/IQO-07-20             Review of DynCorp International, LLC, Contract Number S-LMAQM-                1/07
                          04-C-0030, Task Order 0338, for the Iraqi Police Training Program
                          Support (Joint audit with the Special Inspector General for Iraq
                          Reconstruction)
                     1    OIG recommended the Bureau of International Narcotics and Law
                          Enforcement Affairs (INL) present a plan to the U.S. Ambassador to Iraq
                          for review and approval on the use of residential camp to house police
                          trainers, as originally intended, or make arrangements to dispose of the
                          camp. Because of the lengthy consideration already given to deciding
                          what to do with the trailers, this action should be taken within the next
                          60 days.
                     2    OIG recommended the Ofﬁce of Acquisitions Management seek
                          reimbursement from DynCorp of the improperly authorized payment of
                          $4.2 million that represents contractually unauthorized work directed
                          by the Iraqi Ministry of Interior. This work included the relocation of
                          the residential camp, the manufacture of additional VIP trailers, and the
                          construction of an Olympic-size swimming pool.

AUD/SI-07-27              Audit of Emergency Preparedness at the Washington Metropolitan                3/07
                          Facilities of the Department of State

                     2    OIG recommended the Bureau of Administration ensure the Ofﬁce
                          of Emergency Management’s Planning and Preparedness Division
                          has sufﬁcient stafﬁng to ﬁnalize 6 FAM 400, Ofﬁce of Emergency
                          Management Program, and the proposed 6 FAH-1 H-100, Domestic
                          Emergency Handbook, and ensure the emergency preparedness policies
                          and procedures contained in these manuals are implemented and
                          enforced in a timely manner.


66   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                      3    OIG recommended the Secretary’s Ofﬁce of the Coordinator for
                           Counterterrorism dedicate sufﬁcient staff to ﬁnalize the National Incident
                           Management System and to correct the inaccuracies in the National
                           Response Plan, and submit the information to the Department of
                           Homeland Security (DHS) in a timely manner.

 AUD/CG-07-25              Review of the Institute of International Education’s Indirect Cost Rates          4/07
                           for Fiscal Years 2002-05

                      1    OIG recommended the Bureau of Educational and Cultural Affairs grants
                           ofﬁcer require the Institute of International Education to consistently
                           account for severance pay for FYs 2002-05 as indirect or direct costs,
                           identify overpayments of severance and other beneﬁts related to the
                           severance pay, reimburse the Department for unallowable severance pay
                           and beneﬁts, reduce the fringe beneﬁts pool by the overpayments, and
                           recompute the fringe beneﬁts pool for allocation to the other cost pools.

                      2    OIG recommended the Bureau of Educational and Cultural Affairs grants
                           ofﬁcer require the Institute of International Education to reimburse
                           the Department for bond and loan interest, personal living, and other
                           indirect costs classiﬁed as unallowable; reduce the indirect cost pools
                           by the unallowable costs; and recompute the indirect cost rates in the
                           appropriate pools.

 AUD/CG-07-29              Independent Accountants’ Report on the Application of Agreed-Upon                 6/07
                           Procedures on Costs Claimed by Atlantic Corridor U.S.A., Inc., Under
                           Department of State Grants

                      1    OIG recommended the Bureau of Educational and Cultural Affairs
                           require Atlantic Corridor to refund the Department the $226,705 in
                           excess drawdowns related to Department grants and prohibit any future
                           drawdowns until the funds are repaid and the grantee has established
                           controls limiting any future requests of grant funds to the minimum
                           amount necessary to cover allowable costs.

                      2    OIG recommended the Bureau of Educational and Cultural Affairs
                           require Atlantic Corridor to refund the Department for $45,361 of
                           unallowable costs related to the grants and to provide information so
                           that the Department can make an appropriate determination on the
                           unsupported costs of $97,388.
 AUD/IP-07-47              Return-to-Work: An Important Program for the Department of State to               8/07
                           Implement

                      1    OIG recommended the Bureau of Human Resources develop and
                           implement a return-to-work program for workers’ compensation
                           beneﬁciaries considering the best proactive elements discussed in this
                           report.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008        67
AUD/CG-07-37              Independent Accountants’ Report on the Application of Agreed-Upon             9/07
                          Procedures on Costs Claimed by Meridian International Center Under
                          Department of State Cooperative Agreements

                     1    OIG recommended the Bureau of Educational and Cultural Affairs (1)
                          determine whether the Center’s use of the forgone opportunity costs
                          concerning the Center’s conference facilities constitutes an appropriate
                          cost-share amount under the cooperative agreement, and (2) following
                          this determination, as appropriate, require the Center to provide
                          supporting documentation for the claimed cost-share amounts or an
                          alternative cost-sharing proposal.

AUD/IQO-07-48             Accounting for Government-Owned Personal Property Held by Selected            9/07
                          Contractors in Afghanistan

                     1    OIG recommended the Department develop and implement policies and
                          procedures to achieve compliance with Federal Acquisition Regulation
                          requirements for reviewing a contractor’s property control system.

                     2    OIG recommended the Department take actions to address the $2.9
                          million in unallowable costs identiﬁed in this report, including
                          reconciling contract requirements to the property acquired and invoiced
                          by the contractors for which they were reimbursed and determine
                          whether property in excess of amounts speciﬁed in the contract or task
                          order was required to accomplish contract objectives; documenting the
                          reconciliation and determination, use them as the basis for approving the
                          costs of any excess property deemed allowable, and issue a modiﬁcation
                          to the task order indicating the approval; and resolving any unallowable
                          costs associated with property that was determined to be unnecessary to
                          the accomplishment of contract objectives.
                     3    OIG recommended the Department take the following steps to address
                          the $25.5 million in unsupported costs identiﬁed in this report: reconcile
                          the property acquired and invoiced by the contractors for which they
                          were reimbursed to the contractor’s property lists by obtaining and
                          reviewing contractor documentation detailing the types and quantities
                          of property acquired; determine whether the property was needed and
                          consistent with contract requirements; and resolve any unsupported
                          allowable costs associated with property that could not be supported
                          with adequate documentation or was determined to be unnecessary to the
                          accomplishment of contract objectives.

                     4    OIG recommended the Department develop and implement a process
                          for reviewing the capitalized asset reports submitted by contractors to
                          verify that reports are received for all contracts with contractor-held
                          property and reconciling, at least annually, the capitalized asset reports
                          submitted by contractors to the contractors’ property lists to verify that
                          the capitalized asset reports are complete and accurate.




68   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                         5	     OIG recommended the Department evaluate its current structure for
                                monitoring government property held by contractors, assess the beneﬁts
                                of creating a property administrator function, and use this evaluation to
                                clearly deﬁne the authority and responsibility for property oversight for
                                each member of its contract administration team.

                         6	     OIG recommended the Department develop and implement policies and
                                procedures for monitoring government property held by contractors.




Previously Reported Signiﬁcant Inspections
Recommendations Pending Final Action


 Report           Rec.        Report Title                                                                    First
 Number           No.         Recommendation Summary                                                        Reported
 ISP-C-07-04	                 Compliance Follow-up Review of the Inspection of the USIBWC                      10/06

                   1	         OIG recommended the Bureau of Western Hemisphere Affairs, in
                              coordination with the Bureau of Legislative Affairs, the Ofﬁce of the
                              Legal Adviser, and the Bureau of Human Resources, seek legislation
                              making the U.S. Section of the International Boundary and Water
                              Commission an entity of the Department of State.

 ISP-I-07-12	                 Inspection of the Bureau of Administration’s Ofﬁce of the Procurement            12/06
                              Executive, Ofﬁce of Acquisitions Management and Ofﬁce of Small and
                              Disadvantaged Business Utilization
                   5	         OIG recommended the Bureau of Administration, in coordination with
                              the Bureau of Diplomatic Security, establish a plan to progressively
                              consolidate local guard contracting in the Ofﬁce of Acquisitions
                              Management.
 ISP-I-07-16	                 Inspection of the Bureau of Human Resources (Phase I)                             5/07

                   33	        The Bureau of Human Resources should, in coordination with the
                              Bureau of Resource Management, establish a global savings mechanism
                              to supplement the locally employed staff’s retirement plan. (Action:
                              HR, in coordination with RM)

 ISP-I-07-21	                 Inspection of the Bureau of Administration, Ofﬁce of Logistics                    5/07
                              Operations and Ofﬁce of Program Management and Policy




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008               69
                 10	    OIG recommended the Bureau of Resource Management, in coordination
                        with the Bureau of Administration, establish procedures in the Foreign
                        Affairs Manual to require that all bureau and ofﬁce heads, and chiefs
                        of mission assure in their management controls certiﬁcations that an
                        inventory was conducted and reconciled with property records and that
                        the results were submitted.

                 13	    OIG recommended the Bureau of Administration revise regulations to
                        eliminate the criteria allowing the authorization of adjustments when
                        shortages total less than one percent of the stated inventory value
                        and, when a shortage exists, instead require all domestic and overseas
                        entities to submit either the applicable Property Survey Report or
                        Property Disposal Authorization and Survey Report with the inventory
                        certiﬁcation.
                 20	    OIG recommended the Bureau of Administration mandate a policy and
                        procedures for using purchase cards for all micropurchases and designate
                        the exceptions where doing so is not feasible.

                 22	    OIG recommended the Bureau of Resource Management, in coordination
                        with the Bureau of Administration, establish and implement a system
                        to pay the U.S. Postal Service and bill and collect reimbursement from
                        other agencies for postal service provided to posts being converted to
                        Department-managed postal operations.

                 27	    OIG recommended the Bureau of Human Resources, in coordination
                        with the Bureau of Administration, establish a logistics management
                        function skill code and a logistics certiﬁcation program for logistics
                        professionals worldwide.




Revised Management Decisions


Report          Rec.   Report Title                                                                   First
Number          No.    Recommendation Summary                                                       Reported


ISP-I-07-16            Inspection of the Bureau of Human Resources (Phase I)                            5/07

                 13    The Bureau of Human Resources, in coordination with the Foreign
                       Service Institute, should establish an Executive Advisory Board to provide
                       oversight of the Career Entry Program and include representatives from
                       the Ofﬁce of Civil Service Personnel Management (HR/CSP); Ofﬁce of
                       Recruitment, Examination and Employment (HR/REE); Foreign Service
                       Institute (FSI); and an individual from outside the Department. (Action:
                       HR, in coordination with FSI)




70   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                         HR stated its general concurrence but rejected that part of the
                         recommendation calling for inclusion on the proposed board of a member
                         from outside the Department. It preferred substitution of a member from
                         outside of the bureau, but within the Department. OIG, in its initial review,
                         asked for HR’s rationale for its position. The bureau did not respond to
                         the request, which OIG repeated in a subsequent correspondence. HR
                         submitted a draft charter for the recommended advisory board in its
                         most recent response but the charter does not address this aspect of the
                         recommendation, nor does it mention representation from the Ofﬁce
                         of Recruitment, Examination and Employment or the Foreign Service
                         Institute, as recommended.
                         OIG continues to believe an effective career entry advisory board should
                         include not only HR/CSP and representatives from geographic and
                         functional bureaus as proposed by HR, but representation speciﬁcally from
                         HR/REE, from FSI, and from outside the Department. OIG asked HR to
                         conﬁrm that the proposed board will include HR/REE and FSI, and provide
                         an explanation for its rejection of the inclusion of a member from outside
                         the Department. Pending resolution of these questions, OIG returned the
                         recommendation to unresolved status.

                   34
   The Bureau of Human Resources, in coordination with the Bureau of
                         Administration, should review long-term alternatives to the two bureaus’
                         current division of responsibilities for post assignment travel. (Action:
                         HR, in coordination with A)

                         HR originally reported it had scheduled a meeting in September 2007
                         of several concerned ofﬁces to discuss the possibility of a “one stop
                         shopping” concept for the travel process. The group was to develop
                         recommendations for the Director General and, if warranted, for the Under
                         Secretary for Management. On the basis of that assurance, OIG moved
                         the recommendation to its Resolved/Open category. The bureau’s latest
                         response stated only that the recommendation was still under consideration.
                         OIG restored the recommendation to unresolved status based on the evident
                         lack of progress on the part of HR.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008         71
Signiﬁcant Management Success In Resolving
and Implementing Recommendations


 Report         Rec.   Report Title                                                                 First
 Number         No.    Recommendation Summary                                                     Reported

 ISP-I-05-20A          Inspection of Embassy Bandar Seri Begawan, Brunei                                6/05

                 2     In the inspection of Embassy Bandar Seri Begawan, Brunei, OIG
                       recommended the Bureau of East Asian and Paciﬁc Affairs (EAP), in
                       coordination with CA, transfer the nonimmigrant visa (NIV) processing
                       function from Embassy Bandar Seri Begawan to Embassy Singapore.

                       The Embassy, EAP, and CA all opposed the shifting of the NIV function
                       from Brunei to Singapore, arguing that resource savings would not
                       be signiﬁcant, given that the involved personnel have other functions
                       and could not, in any case be spared. This was supported by ﬁndings
                       of the Department’s rightsizing exercise for the post. The post, CA,
                       and EAP all held that the NIV function served as an important link
                       between interested Brunei Government ofﬁces and the Embassy, and
                       that requiring NIV applicants not qualifying for Brunei visa waivers to
                       apply at Singapore would be unnecessarily burdensome. The Embassy
                       reported that it had assigned its DCM, who had extensive consular
                       experience, to oversee its NIV operations.
                       OIG agreed to retention of the NIV function in Brunei after consultation
                       with CA, under the condition that Brunei NIV applications be vetted
                       with Embassy Manila’s visa fraud unit and the Department of Homeland
                       Security’s Visa Security Unit. All parties agreed to this. A memorandum
                       of understanding has been established between Embassy Bandar Seri
                       Begawan and Embassy Manila that provides for fraud and security
                       reviews in Manila of NIVs issued by Embassy Bandar Seri Begawan.
                       OIG considered this resolution as acceptable alternative compliance with
                       the recommendation and closed it.




Summary of Audit Reports Without Management
Decision for More Than Six Months

Report Number: 00-FM-011
Subject: Audit of Operations and Expenditures for Emergencies in the Diplomatic
and Consular Services
Date Issued: March 31, 2000
Reason for not being resolved: In a December 12, 2007, memorandum, the
Bureau for Resource Management (RM) stated the program is administered

72   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
differently than it was when the audit report was issued more than seven years ago.

RM suggested a follow-up audit and indicated it considers action complete on all 

open recommendations.

Projected date of resolution: September 2008


Report Number: 01-FMA-R-078 

Subject: Information Technology Vulnerability Assessment at the Charleston 

Financial Service Center 

Date Issued: September 11, 2001 

Reason for not being resolved: The Department responded to OIG 

recommendations 1-12 in a September 28, 2005, memorandum. As a result of

that memorandum, a number of the recommendations were closed. However,

the Department has never addressed recommendations 13-15, and they remain 

unresolved.

Projected date of resolution: September 2008


Report Number: AUD/CG-05-26 

Subject: Review of Selected Grants Awarded to Institute for the Study and 

Development of Legal Systems 

Date Issued: October 18, 2005

Reason for not being resolved: In an August 25, 2006, e-mail to OIG, the Bureau 

of Educational and Cultural Affairs (ECA) stated it lacked a sufﬁcient number 

of grants ofﬁcers to address the report’s recommendation and would not be able 

to address it until October 2006. On January 24 and March 4, 2008, OIG sent 

memoranda to ECA requesting a response to the referenced recommendation within 

15 days. ECA had not responded to the recommendation as of March 2008.

Projected date of resolution: September 2008


Report Number: AUD/CG-06-02 

Subject: Application of Agreed-Upon Procedures to George Mason University 

Awards 

Date Issued: February 24, 2006

Reason for not being resolved: In an August 25, 2006, e-mail to OIG, ECA 

stated it lacked a sufﬁcient number of grants ofﬁcers to address the report’s 

recommendation and would not be able to address it until October 2006. On 

January 24 and March 4, 2008, OIG sent memoranda to ECA requesting a response 

to the referenced recommendation within 15 days. ECA had not responded to the 

recommendation as of March 2008.

Projected date of resolution: September 2008





Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   73
Report Number: AUD/CG-06-34
Subject: Agreed-Upon Procedures on Direct Labor and Indirect Expense Rates
Proposed by Integrated Communications Solutions, Inc.
Date Issued: August 14, 2006
Reason for not being resolved: In an August 25, 2006, e-mail to OIG, ECA
stated that it lacked a sufﬁcient number of grants ofﬁcers to address the report’s
recommendation and would not be able to address it until a later date. On January
24 and March 4, 2008, OIG sent memoranda to ECA requesting a response to
the referenced recommendation within 15 days. ECA had not responded to the
recommendation as of March 2008.
Projected date of resolution: September 2008

Report Number: AUD/CG-07-31
Subject: Independent Accountants’ Report on the Application of Agreed-Upon
Procedures on the Indirect Cost Rates Proposed by International Research and
Exchange Board
Date Issued: June 1, 2007
Reason for not being resolved: In an August 13, 2007, memorandum to
OIG, the Bureau of Administration (A) stated a willingness to resolve the audit
recommendation. However, the memorandum stated A could not do so until it
issued negotiated indirect cost rate agreement (NICRA) rates for the International
Research and Exchange Board for FYs 2001-03.
Projected date of resolution: December 2008

Report Number: AUD/FM-06-39
Subject: Internal Controls Related to Travel Advances
Date Issued: September 29, 2006
Reason for not being resolved: The Department has never responded to OIG’s
recommendations.
Projected date of resolution: September 2008

Report Number: AUD/FM-07-28
Subject: Internal Procurement Practices at Embassy Berlin
Date Issued: July 12, 2007
Reason for not being resolved: Embassy Berlin responded to OIG’s
recommendations in a January 2008 cable. OIG will analyze the response and work
with Embassy Berlin to resolve the recommendations.
Projected date of resolution: May 2008




74   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Report Number: AUD/IQO-07-20
Subject: Review of DynCorp International, L.L.C, Contract Number S-LMAQM-
04-C-0030, Task Order 0338, for the Iraqi Police Training Program Support
Date Issued: January 30, 2007
Reason for not being resolved: The Department disagrees with OIG on
recommendation 6 and said it plans to take no additional action on it. OIG
asked for further action in a February 5, 2008, memorandum to the Bureau for
International Narcotics and Law Enforcement.
Projected date of resolution: September 2008




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   75
76   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS




  AUD/CG-08-01                     Independent Accountants’ Report on the Application
                                   of Agreed-Upon Procedures on Indirect Cost Rates
                                   Proposed by National Council for International
                                   Visitors
                                   • Regis & Associates, PC
                                   • Indirect Cost Rate Review

  AUD/CG-08-02                     Independent Accountants’ Report on the Application
                                   of Agreed-Upon Procedures on Costs Claimed by
                                   Young Men’s Christian Association of Greater New
                                   York Under Department of State Grants Rates
                                   Proposed by National Council for International
                                   Visitors
                                   • L.F. Harris & Associates, CPA, P.A.
                                   • Incurred Cost Review

  AUD/CG-08-08                     Independent Accountants’ Report on the Application
                                   of Agreed-Upon Procedures on Indirect Cost Rates
                                   Proposed by America-Mideast Educational and
                                   Training Services
                                   • Regis & Associates, PC
                                   • Indirect Cost Rate Review

  AUD/CG-08-10                     Independent Accountants’ Report on the Application
                                   of Agreed-Upon Procedures on Indirect Cost Rates
                                   Proposed by NAFSA: Association of International
                                   Educators
                                   • Regis & Associates, PC
                                   • Indirect Cost Rate Review

  AUD/CG-08-11                     Independent Accountants’ Report on the Application
                                   of Agreed-Upon Procedures on Indirect Cost Rates
                                   Proposed by Sister Cities International, Inc.
                                   • Regis & Associates, PC
                                   • Indirect Cost Rate Review



 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   77
AUD/CG-08-13                   Independent Accountants’ Report on the Application
                               of Agreed-Upon Procedures on Indirect Cost Rates
                               Proposed by International Center for Journalists,
                               Inc.
                               • Leonard G. Birnbaum and Company, LLP
                               • Indirect Cost Rate Review

AUD/CG-08-14                   Independent Accountants’ Report on the
                               Application of Agreed-Upon Procedures on
                               Indirect Cost Rates Proposed by the Institute for
                               Training and Development
                               • Leonard G. Birnbaum and Company, LLP
                               • Indirect Cost Rate Review

AUD/CG-08-15                   Independent Accountants’ Report on the Application
                               of Agreed-Upon Procedures on Indirect Cost Rates
                               Proposed by United States Conference of Catholic
                               Bishops
                               • Regis & Associates, PC
                               • Indirect Cost Rate Review

AUD/CG-08-16                   Independent Accountants’ Report on the Application
                               of Agreed-Upon Procedures on Indirect Cost Rates
                               Proposed by the International Rescue Committee
                               • Leonard G. Birnbaum and Company, LLP
                               • Indirect Cost Rate Review

AUD/CG-08-20                   Independent Accountants’ Report on the
                               Application of Agreed-Upon Procedures on the
                               Financial Capability of International Arts and
                               Artists, Inc.
                               • Leonard G. Birnbaum and Company, LLP
                               • Financial Capability Review

AUD/FM-08-03                   Independent Auditor’s Report on the Department of
                               State’s Special-Purpose Financial Statements
                               • Leonard G. Birnbaum and Company, LLP
                               • Financial Audit

AUD/FM-08-05                   Independent Auditor’s Report on the Department of
                               State’s 2007 and 2006 Financial Statements
                               • Leonard G. Birnbaum and Company, LLP
                               • Financial Audit
78   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 6: MANAGEMENT AND PERFORMANCE CHALLENGES

    OIG provided the following to the Department for inclusion in its Performance
    and Accountability Report for FY 2007.



    FY 2007 Management and Performance Challenges

    The Reports Consolidation Act of 2000 requires that the Department’s Performance and
    Accountability Report include a statement by the Inspector General that summarizes
    the most serious management and performance challenges facing the Department
    and brieﬂy assesses the progress in addressing those challenges. The Ofﬁce of
    Inspector General (OIG) considers the most serious management and performance
    challenges for the Department to be in the following areas:

        •    Protection of People and Facilities
        •    Information Security
        •    Financial Management
        •    Human Resources
        •    Counterterrorism and Border Security
        •    Public Diplomacy
        •    Post-Conﬂict Reconstruction and Stabilization




    Protection of People and Facilities

    Making its people, facilities, and information more secure continues to be one of
    the Department’s highest priorities and greatest challenges. In FY 2007, the Depart-
    ment had success in addressing security vulnerabilities at a number of overseas posts
    through its new construction and security upgrade programs. However, the Depart-
    ment remains challenged to identify and fund interim solutions to address security
    vulnerabilities at facilities awaiting long-term new construction or the completion of
    major security upgrades. Additionally, as the number of American Presence Posts
    increases, the Department will need funding to complete required security upgrades
    for these facilities.
    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   79
The Department has continued to make progress in strengthening its domestic
protection program during FY 2007, especially through its emergency prepared-
ness program. As stated in the FY 2006 letter, the Department has strengthened its
domestic emergency program through more frequent emergency drills, employee
forums, and by providing proactive guidance to improve employee preparedness at
work and home. In FY 2007, the Department opened a new Domestic Emergency
Command Center to handle emergencies such as Hurricane Katrina and other events
that threaten the safety of the people working at State Department facilities. Addi-
tionally, the Department implemented a new Warden Program. These wardens have
been trained to assist employees in evacuating a building or to direct the employees
to designated shelter-in-place areas or assembly points. While the Department has
made signiﬁcant progress in its domestic emergency program, more still needs to
be done. The Department needs to continue the work it has started in developing
new Facility Emergency Action Plans (FEAP) for all Washington area facilities. The
Department also needs to ﬁnalize the development and implementation of domestic
emergency policies and procedures.



Information Security

The Department continues to make progress in strengthening its information se-
curity programs and practices, while realizing that more must be done to effectively
administer and manage its information security programs per statutory requirements.
Improvements have been made by the Department in its governance structures for
information security over the last year with the creation of the Information Secu-
rity Steering Committee, which has helped resolve differences between components
involved in the information security process. Training and awareness, contingency
planning, and incident response are among the strongest and most mature areas in
terms of operational development within the Department. There has been high
level support from the Secretary and Under Secretary for Management for the pro-
tection of privacy information with positive steps, such as the creation of the Privacy
Protection Governance Board, already completed.

There are several areas that require additional attention from the Department in
order to ensure an overall effective information security program. There is an ad
hoc nature to the Department’s program with operational elements stronger than the
program planning elements. For example, the information security program plan for
the Department, submitted to the Ofﬁce of Management and Budget in late August,
does not fully meet statutory requirements. Further, the Department’s inventory
management policy does not address roles and responsibilities for overall inventory


80   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
management nor does it establish accountability for the maintenance of accurate
inventory records. The Federal Enterprise Architecture, System Development Life
Cycle, and Capital Planning and Investment Control processes are not integrated
within the Department and, as a result, the ability to address information security
through the planning process is hampered. Finally, the Ofﬁce of Information Pro-
grams and Services’ ability to implement privacy requirements has been limited due
to insufﬁcient funding to support a multitude of new tasks.

Given the increasing use and reliance on cellular telephones (both ofﬁcial and non-
ofﬁcial) in the work place domestically, the Department is also faced with reevalu-
ating its existing, but relatively unenforced, restrictive policies. The Department’s
challenge is balancing users’ perceived needs against known threats and the cellular
telephone’s potential for being exploited as a means to clandestinely access sensitive
or classiﬁed information.



Financial Mana gement

Financial management continues to be a major challenge within the Department.
During FY 2006, the Department became aware of potentially material amounts of
real property that had not been properly reported in its ﬁnancial statements. Because
of the effort to address the real property issue, the Department was unable to pro-
vide complete ﬁnancial statements or certain evidential material in a timely manner.
Therefore, the independent external auditor was unable to express an opinion on the
Department’s ﬁnancial statements by the November 15, 2006, deadline imposed by
the Ofﬁce of Management and Budget.

The Department thereafter completed its work on real property and restated the FY
2005 ﬁnancial statements to correct the errors. The Department also restated its FY
2006 ﬁnancial statements to correct an error related to funds provided to another
agency. The Department provided completed ﬁnancial statements and supporting
documentation to the independent external auditor, who issued an unqualiﬁed opin-
ion on the ﬁnancial statements on December 12, 2006.

In its ﬁndings, the independent external auditor identiﬁed a weakness related to real
property, and again noted concerns that had been identiﬁed in prior reports relating
to the recording of personal property and related depreciation expenses, information
systems security, the adequacy of the ﬁnancial and accounting systems, management
of undelivered orders, and the lack of a managerial cost accounting system. The
independent external auditor also again noted that the Department continues to have
difﬁculty producing year-end ﬁnancial data in a timely manner.

Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   81
During FY 2007, the Department has taken steps to address some of these weak-
nesses. For example, the Department developed detailed guidance to ensure con-
struction costs are properly capitalized, and implemented processes to monitor both
project establishment and completion. The Department also created a committee to
address weaknesses related to personal property. This committee has implemented
improvements in the methods used to identify and report vehicle costs, aircraft, and
property held by contractors. For computer security, the Department has made
progress in its certiﬁcation and accreditation processes, and is working to develop
an accurate inventory of systems, address new security requirements, and improve
patch management. The Department has also implemented a new domestic ﬁnancial
and accounting system, and is automatically deobligating certain undelivered orders.
In addition, the Department is working to implement a managerial cost accounting
system.



Human Resources

The Director General of the Foreign Service (DG) and the Bureau of Human
Resources (HR) face signiﬁcant challenges in implementing the Secretary of State’s
vision of transformational diplomacy and ensuring the availability of a dynamic
diplomatic corps that has a broad range of knowledge, skills, and capabilities. In
responding to these challenges, the DG and his team must balance high-stakes prob-
lems in international relations with a series of major personnel-related initiatives.

The bureau has redesigned the assignment system to ﬁll key overseas positions,
changed the Foreign Service examination process, taken steps to strengthen the re-
tirement ofﬁce, and launched a shared services structure for certain human resources
functions.

A controversial new assignment system successfully met its short-term goal of ﬁll-
ing Foreign Service vacancies in critical hardship posts. However, despite this, it is
unclear whether the Department will continue to be able to staff Iraq on a voluntary
basis or will have to move to directed reassignments.

The Department’s efforts to establish shared services (Centers of Excellence) for
certain HR functions must be put on a rational implementation schedule if it is to
succeed. The Department should also explore consolidation of certain HR func-
tions in a single center.

A Global Repositioning Program moved 200 Foreign Service jobs from Washington,
Europe, and elsewhere to India, China, and other countries to support transforma-
tional diplomacy. Before proceeding with additional rounds of this program, the

 82   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Department should undertake more rigorous planning and analysis to lay out clear
objectives and develop the most cost-effective means of achieving them.

A 15-percent deﬁcit in mid-ranked Foreign Service positions due to decreased hiring
in the 1990s continues to hamper stafﬁng for key positions worldwide. The De-
partment could only overcome this problem before 2010 through an extraordinary
intervention in the hiring and promotion process for Foreign Service ofﬁcers. The
Civil Service ﬁlls some key policy jobs in Washington, provides crucial administra-
tive support to the Department, and increasingly provides support in critical posts
overseas, but it also faces increasing retirements and recruiting challenges.

Over 38,000 locally employed (LE) staff also work for the Department at overseas
posts. The Department needs to codify and strengthen its commitment to LE staff.

The Department needs an effective program for returning to work those employ-
ees who have been injured on the job and are receiving beneﬁts under the Federal
Employees Compensation Act. A systematic effort to contact and encourage injured
employees to return to work as soon as medically feasible is an industry and govern-
ment best practice, and a key to reduced claimant fraud. However, although ofﬁcials
in HR had drafted a policy paper for such a program, no program has been estab-
lished because HR said there were uncertainties regarding which bureau within the
Department should develop and manage the program.



Counterterrorism and Border Security

Cross-border problems, which have a direct impact on U.S. business interests, en-
vironmental safety, quality of life, and border security, continue to challenge the
Department. The U.S. Embassy in Mexico and the Bureau of Western Hemisphere
Affairs emphasize border issues in their strategic plans. However, neither has dedi-
cated sufﬁcient staff or attention to the coordination of those issues. Border posts
need additional positions to allow them to focus on solving the problems.


With looming increases in consular workload and in demands on consular resources
over the next ﬁve years, there is also a need to address non-consular issues and their
priority in the operations of the border posts. If non-consular issues are not prop-
erly managed now, it will be impossible to do so once the wave of U.S. passport and
nonimmigrant visa applications hits the border. The decision to assign regional secu-
rity ofﬁcers to each border consulate has improved the security of the consulates and
enhanced the coordination of cross-border law enforcement issues that in turn affect
bilateral commercial development.
Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   83
Public Diplomacy

The Under Secretary for Public Diplomacy and Public Affairs has made a personal
priority of improving public diplomacy coordination within the Department and
in the interagency process, and has made important progress in this area, including
implementing recommendations of the OIG and the Government Accountability
Ofﬁce. Public diplomacy strategic planning has improved, but could be stronger,
especially at the mission level.

The Department has also made important, promising progress in the difﬁcult task of
measuring the impact and outcomes of public diplomacy efforts rather than just to-
taling public diplomacy activities undertaken, as had primarily been done in the past.
The prospects for further progress are encouraging. The need to increase public
diplomacy ofﬁcers’ foreign language capabilities is a long-term challenge.



Post-Conﬂict Stabilization and Reconstruction

Despite its broad mandate, the Ofﬁce of the Coordinator for Reconstruction and
Stabilization (S/CRS) has not yet carved out a leadership role in the management of
reconstruction and stabilization crises. It has remained on the periphery in the inter-
agency handling of such crises, playing only an incremental role.

At present, S/CRS has four central issues on its agenda that will determine whether
it will expand signiﬁcantly the parameters of its present responsibilities and establish
for itself a viable institutional role. These issues are: a new relationship with the
Director of Foreign Assistance, a major role in implementing the S/CRS charter
in National Security Presidential Directive-44, a lead role in developing the Civilian
Reserve Corps, and management of the Department of Defense’s FY 2007 $100-
million transfer authority.

Although S/CRS has not played the role its proponents had hoped, the S/CRS divi-
sions have continued to develop doctrine, manage exercises, and provide useful, al-
beit limited, assistance to embassies through the Active Response Corps. S/CRS has
excellent leadership, an able committed staff, and surprisingly high morale; however,
it needs to restructure. Its current organizational pattern does not adequately reﬂect
the actual delineation of responsibilities within the ofﬁce and inhibits coordination
and communication.


84   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Broadcasting Board of Governors
86   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                                           AUDITS




Independent Auditor’s Report on the Broadcasting
Board of Governors’ 2007 and 2006 Financial
Statements (AUD/FM-08-07)

OIG’s independent external auditor issued an unqualiﬁed opinion on BBG’s annual
ﬁnancial statements as of September 30, 2007 and 2006, and for the years then
ended. Although an unqualiﬁed opinion was issued, the report brings to manage-
ment’s attention two signiﬁcant deﬁciencies related to internal controls and an
instance of noncompliance with selected provisions of applicable laws and
regulations.



Management Letter Related to the Audit of the
Broadcasting Board of Governors’ 2007 and 2006
Financial Statements (AUD/FM-08-06)

During the audit of BBG’s 2007 and 2006 ﬁnancial statements, the independent
external auditor identiﬁed internal control weaknesses relating to property, plant,
and equipment; undelivered orders; the manual of administration; and government
purchase cards. The external auditor recommended BBG take appropriate action to
address these weaknesses.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   87
88   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                                  INSPECTIONS




Inspection of the Broadcasting Board of Governors
(ISP-IB-08-12)

The BBG is serving U.S. foreign policy interests well. BBG functions under its new,
proactive chairman are cordial and focused on its mandate. BBG is served by an
energetic, dedicated group of governors who contribute more than their part-time
status suggests.

The organization of the BBG’s governing board is unique within the Federal Gov-
ernment. Its congressionally mandated collective chief executive ofﬁcer structure
and nondelegatable supervisory authorities require the support of a robust profes-
sional staff to carry out its daily operations.

BBG staff is highly competent and enthusiastic. Rationalization of its functions
would promote more effective use of their talents in BBG strategic planning and car-
rying out supervision on its behalf. OIG recommended BBG develop a written hu-
man resources needs assessment for its staff from which it can develop and reinforce
its structure and implement a hiring plan.

BBG is seeking to make its work more transparent to the entities it supervises, but
despite progress, more needs to be done, particularly during the budget exercise and
the periodic Language Service Reviews. OIG recommended BBG implement a plan
to improve the exchange of information between BBG staff and other agency ele-
ments, including the grantees, to ensure adequate interaction and feedback.



Inspection of International Broadcasting Bureau,
Morocco Transmitting Station (ISP-IB-08-05)

The International Broadcasting Bureau (IBB), Morocco Transmitting Station, was
well-managed and provided broadcasting and technical services to Europe, the Mid-
dle East, and Africa. However, as IBB faced budget constraints, the station faced
possible reduced operations or closure.


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   89
OIG was not able to evaluate the merits of closure of the IBB facility without an
examination of worldwide broadcast policy goals and the technical means to achieve
them. OIG recommended IBB, together with other stakeholders, prepare a careful
worldwide study of the future targets of U.S. broadcasting, residual value of proper-
ty and equipment, closeout costs, and technical issues of propagation of radio waves
prior to making an irreversible decision to close the Morocco transmitting station.

In November 2007, BBG announced its intent to cease operations at the Morocco
station in 2008 and to return the facility to the Kingdom of Morocco in 2009. This
action was approved in an ofﬁcial reprogramming action transmitted to the Con-
gress, and has received Congressional approval. This decision has been conveyed to
the Kingdom of Morocco.




Inspection of Voice of America Central News
(ISP-IB-08-06)

The new leadership at Voice of America (VOA), along with even more recent chang-
es to the leadership of BBG, had made a good start on an energetic process to ad-
dress systemic internal communication, and organizational and leadership challenges
facing VOA’s Central News Division (CN). However, much remained to be done.

Inadequate horizontal and vertical internal communication, changes in the types of
technology needed to reach VOA’s target audiences, combined with U.S. Govern-
ment-wide problems of funding and stafﬁng, had left CN with an inadequate man-
agement structure, inefﬁciencies, and poor morale. OIG recommended BBG imple-
ment an internal communication strategy to introduce the staff to the FY 2008-13
Strategic Plan and to educate staff members about the structure and roles of the
various parts of the BBG.

The increased focus on television and the Internet required a massive shift in re-
sources and an infusion of technical and editorial talent throughout the relevant IBB
and VOA ofﬁces. Neither sufﬁcient funding nor human resources had been identi-
ﬁed and allocated to these programs. OIG recommended VOA develop a compre-
hensive strategy for the integration of these new technologies into their products.

There was a widespread lack of awareness of administrative guidelines. Operational
handbooks, position descriptions, and the Manual of Operations and Administra-
tion were not being kept up to date. There were vacancies in, and inadequate train-
ing for, key administrative and management positions. OIG recommended VOA

90   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
implement effective internal controls and develop and implement standard operating
procedures. There was also a need for improved internal controls and accountability
in support of overseas operations. Training in leadership skills, resource manage-
ment, EEO, and technical skills was not tied into broader agency mission and career
development goals, or considered in staff evaluations.

All parties interviewed as part of this inspection were in agreement that products
issued by CN should continue to be unbiased summaries of news presented in an ac-
curate, objective, and comprehensive manner in accordance with the VOA Charter.



Inspection of Broadcasting Board of
Governors Operations in Kenya (ISP-IB-08-07)

OIG’s inspection of the BBG operations in Kenya found that Nairobi was the hub
of much of BBG’s activity in East Africa. While individually well run, the various
BBG elements in Kenya did not communicate adequately among themselves. The
ofﬁces of IBB and VOA that supported them had not been well-integrated in Wash-
ington, nor had those ofﬁces communicated adequately with the ﬁeld.

At the time of the inspection, East Africa was attracting increased attention in
Washington, and its media market was an important focus of VOA English, Swahili,
and Somali broadcasting. However, the BBG initiatives in the region were under-
resourced to meet this interest. OIG recommended BBG make a decision either to
increase promotional funds for the VOA Kenyan market or to accept a low market
share and demonstrate a plan to address limited communication with the Kenyan
audience.

VOA operates in a highly competitive market in East Africa. The challenges to
reaching the widest possible audience come from the aggressive competition of
other domestic and foreign broadcasters, the state of technology in the region, and
limits on the resources available to IBB for the transmission and advertising of VOA
products. OIG recommended IBB support efforts to make programming for East
Africa more attractive to local audiences. It would, thereby, comply with BBG’s stra-
tegic plan by requiring more frequent updates on such factors as funding for adver-
tising, audience surveys, and reception problems.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   91
92   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                                   INVESTIGATIONS




CONFLICT OF INTEREST

OIG conducted an investigation of a BBG ofﬁcial who engaged in a conﬂict of
interest by not disclosing earned income from a business he owned that held con-
tracts with BBG. The Department of Justice declined prosecution, and the case was
referred to BBG management for adjudication. On October 24, 2007, BBG notiﬁed
OIG the ofﬁcial had been terminated from his employment with BBG. (07-017)




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   93
94   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS
          INVESTIGATIVE ACTIVITIES


  Investigative Workload                            Number
  Cases pending 9/30/07                                6
  New cases opened                                     0
  Cases closed                                         1
  Cases pending 3/31/08                                5

  Preliminary inquires pending 9/30/07                 2
  Preliminary inquiries opened                         0
  Preliminary closed                                   1
  Preliminary inquiries converted to cases             0
  Preliminary inquiries pending 3/31/08                1

  Total Judicial Actions                               0
  Prosecutive Referral                                 0
  Prosecutive Declination                              0
  Criminal Indictment/Arrest                           0
  Criminal Conviction                                  0
  Criminal Sentencing                                  0
  Time Sentenced                                       0
  Time Probation                                       0
  Court Ordered Fine                                   0
  Court Ordered Restitution                            0


  Administrative Investigative Activities
  Personnel Actions

         -Referral                                     0
         -Removals                                     1
         -Suspensions                                  0
         -Reprimands/Admonishments                     0
         -Reimbursements                               0
         -Administrative Recovery                      0

  Total Investigative Recoveries                      $0



 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   95
96   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                 APPENDIX 2: REPORTS ISSUED




 AUD/FM-08-06                 Management Letter Related to the Audit of BBG’s
                              2007 and 2006 Financial Statements

 AUD/FM-08-07                 Independent Auditor’s Report on the Broadcasting
                              Board of Governors’ 2007 and 2006 Financial
                              Statements
 ISP-IB-08-05                 Inspection of International Broadcasting Bureau’s
                              Morocco Transmitting Station
 ISP-IB-08-06                 Inspection of Voice of America Central News


 ISP-IB-08-07                 Inspection of Broadcasting Board of Governors
                              Operations in Kenya

 ISP-IB-08-12                 Inspection of the Broadcasting Board of Governors




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   97
98   Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES



                                Table 1
                INSPECTOR GENERAL ISSUED AUDIT REPORTS
                        WITH QUESTIONED COSTS


                  Type of Report               Number of 
    Question        Unsupported
                                                Reports
       Costs             Costs
                                                             (Dollars in       (Dollars in
                                                             Thousands)       Thousands)
      A.   For which no management
           decision has been made by the
           commencement of the reporting           0              $0                $0
           period

      B.   Which were issued during the
           reporting period                        0              $0                $0

           Subtotals (A + B)
                                                   0              $0                $0

      C.   For which a management
           decision was made during
           the reporting period based on           0              $0                $0
           formal administrative or judicial
           appeal
           (i) dollar value of disallowed
           costs                                                  $0                $0

           (ii) dollar value of costs not
           disallowed                                             $0                $0

      D.   For which no management
           decision has been made by the           0              $0                $0
           end of the reporting period

           Reports for which no
           management decision was made            0              $0                $0
           within six months of issuance




     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   99
                            Table 2
          INSPECTOR GENERAL ISSUED AUDIT REPORTS

             WITH RECOMMENDATIONS THAT FUNDS 

                    BE PUT TO BETTER USE

                     Type of Report                     Number of 
        Dollar Value
                                                         Reports
        (in Thousands)
A.	   For which no management decision has been
      made by the commencement of the reporting
      period                                                 0                 $0

B.	   Which were issued during the reporting period
                                                             0                 $0
      Subtotals (A + B)
                                                             0                 $0
C.	   For which a management decision was made
      during the reporting period                            0                 $0
      (i) dollar value of recommendations that were
      agreed to by management                                0                 $0
      (ii) dollar value of recommendations that were
      not agreed to by management                            0                 $0

D.	   For which no management decision has been
      made by the end of the reporting period
                                                             0                 $0

      Reports for which no management decision was
      made within six months of issuance
                                                             0                 $0




100 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS


     Nothing to report.




     Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   101
102 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS


 AUD/FM-08-07 	                    Independent Auditor’s Report on the Broadcasting
                                   Board of Governors’ 2007 and 2006 Financial
                                   Statements
                                   •Leonard G. Birnbaum and Company, LLP
                                   •Financial Audit

 AUD/FM-08-06 	                    Management Letter Related to the Audit of the
                                   Broadcasting Board of Governors 2007 and
                                   2006 Financial Statements
                                   •Leonard G. Birnbaum and Company, LLP
                                   •Financial Audit




 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   103
104 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
APPENDIX 6: MANAGEMENT AND PERFORMANCE CHALLENGES


    OIG provided the following to BBG for inclusion in its Performance and
    Accountability Report for FY 2007.




    FY 2007 Management and Performance Challenges

    The Reports Consolidation Act of 2000 requires the BBG Performance Accountability Report
    include a statement by the Inspector General that summarizes the most serious man-
    agement and performance challenges facing BBG and brieﬂy assesses the progress
    in addressing those challenges. OIG considers the most serious management and
    performance challenges for the BBG to be in the following areas:


        •   Protection of People and Facilities
        •   Expanding Television Production and Distribution of Programming
        •   Need for Improved Metrics of Performance Results
        •   Need for Improved Internal Controls
        •   Information Technology




    Protection of People and Facilities

    BBG has improved its emergency preparedness program since OIG’s management
    challenges statement in BBG’s FY 2006 Performance and Accountability Report.
    Speciﬁcally, BBG reports it has implemented all outstanding recommendations in the
    OIG report, Audit of Emergency Preparedness at the Washington Metropolitan Facilities of
    the Broadcasting Board of Governors (AUD/SI-06-24). As a result, OIG has closed the
    report and is dropping this issue from the list of BBG’s management challenges.

    BBG’s Ofﬁce of Administration has revised and updated Part IV Section 470 of the
    Manual of Administrative Operations to include the requirements of Homeland Se-
    curity Presidential Directive/HSPD-5. The Ofﬁce of Security has adopted the Na-


    Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   105
tional Response Plan and implemented the National Incident Management System as
required through the Department of Homeland Security.

The Occupant Emergency Plan has been widely disseminated and is also on the
BBG’s Web site. BBG has also developed methods to ensure that employees are out
of their building and accounted for. As part of its effort to strengthen emergency
planning, the BBG plans to conduct quarterly evacuation and shelter-in-place drills

The BBG’s Ofﬁce of Administration continues to be steadfast in their communica-
tion with the General Services Administration (GSA), at all levels, to ensure the safe-
ty and security of its employees. Because of this relationship with GSA, the building
is undergoing extensive upgrades. These upgrades include new ﬁre alarm systems,
with voice capabilities, as well as new sprinkler and smoke detection systems. This
project is scheduled to be completed by summer 2008.




Expanding Television Production and Distribution of
Programming

BBG’s Ofﬁce of Cuba Broadcasting (OCB) deserves credit for initiating the Aero
Marti concept which has expanded program distribution in Cuba. Local funds were
allocated to study the feasibility of developing a small airplane with the capacity of
transmitting the signal, and OCB worked directly with private contractors who devel-
oped the technology. Following up on this initiative, the Commission for Assistance
to a Free Cuba recommended “making available funds to acquire and reﬁt an aircraft
for dedicated airborne radio and television transmissions into Cuba.” Respond-
ing to the need, Congress provided $10 million for the project, which, under OCB’s
leadership, became operational in short order. The annual cost for leasing two Aero
Marti planes, including fuel, operation, and maintenance, is $5.9 million, a fraction of
the expenses incurred when using the previous C-130 aircraft. More broadly, Aero
Marti may have applications in other theaters of operation, particularly where hostile
governments attempt to block broadcast signals.

One challenge for BBG broadcasting is that it is losing its access to the Russian
people due to changes in media trends and to subtle pressure from the authorities to
discourage Russian radio and television stations from hosting foreign programming.
Shortwave listenership is rapidly declining. VOA’s Russian news service is shifting
from radio to television as a more effective way to reach a wider audience, but it is
increasingly difﬁcult to ﬁnd stations that will place BBG programs.


106 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
Need for Improved Metrics of Performance Results

International Broadcasting Board quality reviews show that radio and television
broadcasts have markedly improved over the past two years in production quality and
content. However, greater emphasis is needed on internal quality control to ensure
editorial standards are followed.



Need for Improved Internal Controls

BBG needs to continue to improve its internal controls over ﬁnancial and accounting
issues. For example, although the independent external auditor issued an unqualiﬁed
opinion on BBG’s ﬁnancial statements as of and for the ﬁscal year ended Septem-
ber 30, 2006, the auditor identiﬁed concerns with the adequacy of BBG’s ﬁnancial
and accounting system, which is both an internal control weakness and an issue of
noncompliance with several laws and regulations, and with accounting for accounts
payable.

Additionally, in a separate management letter, the independent external auditor iden-
tiﬁed internal control weaknesses relating to BBG’s payroll documentation, accounts
receivable balance, property records, grants management, purchase card oversight,
and undelivered orders.




Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   107
108 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                                  ABBREVIATIONS



    A                                Bureau of Administration
    AMIDEAST                         America-Mideast Educational and Training
                                     Services, Inc.
    ASAC                             Assistant Special Agent in Charge
    BBG                              Broadcasting Board of Governors
    CA                               Bureau of Consular Affairs
    CFR                              compliance follow-up review
    CN                               VOA’s Central News Division
    COM                              Chief of Mission
    DCM                              deputy chief of mission
    Department                       U.S. Department of State
    DS                               Bureau of Diplomatic Security
    DS/PSP/DEAV                      Ofﬁce of Physical Security Programs, Defensive
                                     Equipment and Armored Vehicle Division
    EAP                              Bureau of East Asian and Paciﬁc Affairs
    EEO                              Equal Employment Opportunity
    FDIC                             Federal Deposit Insurance Corporation
    FRC                              Florida Regional Center
    FSI                              Foreign Service Institute
    GAGAS                            generally accepted government auditing standards
    GAO                              Government Accountability Ofﬁce
    GSA                              General Services Administration
    HR                               Bureau of Human Resources
    HR/CSP                           Ofﬁce of Civil Service Personnel Management
    HR/REE                           Ofﬁce of Recruitment, Examination and
                                     Employment
    IBB                              International Broadcasting Bureau
    ICE                              U.S. Department of Homeland Security, Bureau of
                                     Immigration and Customs Enforcement


Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008   109
   IG                               Inspector General
   INL                              Bureau of International Narcotics and Law
                                    Enforcement Affairs
   INV                              Ofﬁce of Investigations
   LE                               locally employed
   MEPI                             Middle East Partnership Initiative
   MERO                             Middle East Regional Ofﬁce
   NIV                              nonimmigrant visa
   NSDD                             National Security Decision Directive
   OBO                              Bureau of Overseas Buildings Operations
   OCB                              BBG’s Ofﬁce of Cuba Broadcasting
   ODNI                             Ofﬁce of the Director of National Intelligence
   ONDCP                            Director of the Ofﬁce of National Drug Control
                                    Policy
   OIG                              Ofﬁce of Inspector General
   OMB                              Ofﬁce of Management and Budget
   PAO                              public affairs ofﬁcer
   PEPFAR                           President’s Emergency Plan for AIDS Relief
   RM                               Bureau of Resource Management
   ROL                              rule of law
   S/CRS                            Ofﬁce of the Coordinator for Reconstruction and
                                    Stabilization
   S/GAC                            Ofﬁce of the Global AIDS Coordinator
   SAR                              Semiannual Report to the Congress
   UNVIE                            U.S. Mission to International Organizations in
                                    Vienna
   USAID                            U.S. Agency for International Development
   VOA                              Voice of America




110 Ofﬁce of Inspector General Semiannual Report to the Congress, October 1, 2007, to March 31, 2008
                 INDEX   OF   REPORTING REQUIREMENTS
          INSPECTOR GENERAL ACT            OF     1978,   AS AMENDED




REQUIREMENT SUBJECT                                                    PAGE NUMBERS

Section 4(a)(2) Review of legislation and regulations                  13-14
Section 5(a)(1) Signiﬁcant problems, abuses, and deﬁciencies           19-50, 89-91

Section 5(a)(2) Signiﬁcant recommendations for corrective action       19-50, 89-91

Section 5(a)(3) Prior signiﬁcant recommendations unimplemented         65-70

Section 5(a)(4) Matters referred to prosecutive authorities            51-57, 93-95

Section 5(a)(5) Information or assistance refused                      none

Section 5(a)(6) List of reports issued                                 59-61, 97

Section 5(a)(7) Summaries of signiﬁcant reports                        19-50, 89-91

Section 5(a)(8) Audit reports–questioned costs                         63, 99

Section 5(a)(9) Audit reports–funds to be put to better use            64, 100

Section 5(a)(10) Prior audit reports unresolved                        none

Section 5(a)(11) Signiﬁcant revised management decisions               none

Section 5(a)(12) Signiﬁcant management decisions with which
                 OIG disagreed                                         none
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT

     of Federal programs and resources

              hurts everyone.


      Call the Ofﬁce of Inspector General

                   HOTLINE

                  202-647-3320

              or 1-800-409-9926

       or e-mail oighotline@state.gov

     to report illegal or wasteful activities.


            You may also write to

          Ofﬁce of Inspector General

           U.S. Department of State

             Post Ofﬁce Box 9778

             Arlington, VA 22219


    Please visit our website at oig.state.gov


        Cables to the Inspector General
        should be slugged “OIG Channel”
           to ensure conﬁdentiality.
               BLE OF CONTENTS
